<html>
<title> - CONFRONTING RECIDIVISM: PRISONER RE-ENTRY PROGRAMS AND A JUST FUTURE FOR ALL AMERICANS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





 CONFRONTING RECIDIVISM: PRISONER RE-ENTRY PROGRAMS AND A JUST FUTURE 
                           FOR ALL AMERICANS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 2, 2005

                               __________

                           Serial No. 109-10

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-377                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
KATHERINE HARRIS, Florida            LINDA T. SANCHEZ, California
DARRELL E. ISSA, California          C.A. DUTCH RUPPERSBERGER, Maryland
GINNY BROWN-WAITE, Florida           BRIAN HIGGINS, New York
JON C. PORTER, Nevada                ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas                    Columbia
LYNN A. WESTMORELAND, Georgia                    ------
PATRICK T. McHENRY, North Carolina   BERNARD SANDERS, Vermont 
CHARLES W. DENT, Pennsylvania            (Independent)
VIRGINIA FOXX, North Carolina

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 2, 2005.................................     1
Statement of:
    Davis, Hon. Danny, a Representative in Congress from the 
      State of Illinois..........................................    32
    Nolan, Pat, Prison Fellowship; Joseph Williams, Transition of 
      Prisoners; Chaplain Robert Toney, Angola Prison, Louisiana; 
      Frederick A. Davie, senior vice president of public policy, 
      Public/Private Ventures; and George A.H. Williams, 
      Treatment Alternatives for Safe Communities................    88
        Davie, Frederick A.......................................   112
        Nolan, Pat...............................................    88
        Williams, George A.H.....................................   117
        Williams, Joseph.........................................   100
    Portman, Hon. Rob, a Representative in Congress from the 
      State of Ohio..............................................    20
    Wilkinson, Reginald A., Ed.D., Ohio Rehabilitation and 
      Corrections Agency; Lorna Hogan, mother advocate, the 
      Rebecca Project for Human Rights, Washington, DC; Felix 
      Mata, Baltimore City's Ex-Offender Initiative, Mayor's 
      Office of Employment Development; Paul A. Quander, District 
      of Columbia Court Services and Offender Supervision Agency; 
      and Jim McNeil and David Russell, mentor and protege in the 
      Innerchange Freedom Initiate...............................    37
        Hogan, Lorna.............................................    53
        McNeil, Jim..............................................    72
        Mata, Felix..............................................    58
        Quander, Paul A., Jr.....................................    63
        Russell, David...........................................    75
        Wilkinson, Reginald A....................................    37
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     8
    Davie, Frederick A., senior vice president of public policy, 
      Public/Private Ventures, prepared statement of.............   114
    Hogan, Lorna, mother advocate, the Rebecca Project for Human 
      Rights, Washington, DC, prepared statement of..............    55
    Mata, Felix, Baltimore City's Ex-Offender Initiative, Mayor's 
      Office of Employment Development, prepared statement of....    60
    McNeil, Jim, mentor and protege in the Innerchange Freedom 
      Initiate, prepared statement of............................    73
    Nolan, Pat, Prison Fellowship, prepared statement of.........    93
    Portman, Hon. Rob, a Representative in Congress from the 
      State of Ohio, prepared statement of.......................    26
    Quander, Paul A., District of Columbia Court Services and 
      Offender Supervision Agency, prepared statement of.........    66
    Russell, David, mentor and protege in the Innerchange Freedom 
      Initiate, prepared statement of............................    77
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Toney, Chaplain Robert, Angola Prison, Louisiana, information 
      concerning Louisiana State Penitentiary....................   111
    Wilkinson, Reginald A., Ed.D., Ohio Rehabilitation and 
      Corrections Agency, prepared statement of..................    41
    Williams, George A.H., Treatment Alternatives for Safe 
      Communities, prepared statement of.........................   119
    Williams, Joseph, Transition of Prisoners, prepared statement 
      of.........................................................   103

 
 CONFRONTING RECIDIVISM: PRISONER RE-ENTRY PROGRAMS AND A JUST FUTURE 
                           FOR ALL AMERICANS

                              ----------                              


                      WEDNESDAY, FEBRUARY 2, 2005

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:07 p.m., in 
room 2247, Rayburn House Office Building, Hon. Mark E. Souder 
presiding.
    Present: Representatives Souder, Shays, Harris, Porter, 
Westmoreland, McHenry, Dent, Cummings, Davis of Illinois, Clay, 
Watson, Ruppersberger and Norton.
    Staff present: Marc Wheat, staff director and counsel; 
Brandon Lerch, professional staff member; Nick Coleman, 
professional staff member and counsel; Pat DeQuattro and Dave 
Thomasson, congressional fellows; Malia Holst, clerk; Earley 
Green, minority chief clerk; Jean Gosa, minority assistant 
clerk; and Tony Haywood, minority counsel.
    Mr. Souder. The Subcommittee on Criminal Justice will now 
come to order. Actually, this is a full committee hearing. 
Although this topic has been set up under the Subcommittee on 
Criminal Justice, it is a full committee hearing; and I 
appreciate Chairman Davis as well as Ranking Member Henry 
Waxman allowing us to move ahead, even though our committee 
hasn't been fully organized yet this year. So while I presume I 
will continue to be chairman of this subcommittee, it is not 
yet official.
    So good afternoon. I thank all of you for being here. 
Particular thanks to the many witnesses who have traveled great 
distances to be here.
    The impetus for this hearing is owed to the gentleman from 
Ohio, Mr. Rob Portman, and the gentleman from Illinois, a long-
time member of this subcommittee, an active member, Danny 
Davis. Their leadership has brought the issue of prisoner 
reentry to the fore of domestic policy.
    Many thanks as well to the gentleman from Maryland, Elijah 
Cummings. With so much activity swirling around us at the 
beginning of the 109th Congress, many schedules are quite full. 
But Mr. Cummings' commitment to this issue has helped to bring 
us together today, and for that I am grateful.
    Crime statistics have been debated for decades, but not 
until recently have these debates included the crisis of 
recidivism. Thanks certainly is owed to the two Members of 
Congress testifying today for raising the profile of this 
issue, but much of the credit is owed to those who have been in 
the recidivism trenches for years.
    After more than a decade of tough crime policies, according 
to the Bureau of Justice Statistics, over 2 million Americans 
are held in Federal, State or county jails. Over 4 million 
Americans are on parole or probation.
    It should be surprising to no one that well over half a 
million inmates are being released every year. Logical 
questions arise: Where do these people go? What job skills do 
they have? Who hires them? Are they rehabilitated? The answers 
to these questions are not very encouraging.
    Many of those paroled and released inmates will return to 
prison within 3 years. According to the Government 
Accountability Office, in 1998, the percentage of 
reincarcerations among all admissions at State and Federal 
prisons was 35 percent, up from 17 percent in 1980. Broader 
surveys show recidivism rates of nearly two-thirds of all 
inmates.
    Representing a revolving door in the American justice 
system, this recidivism rate indicates a massive failure of the 
penal system to return law-abiding citizens to society. The 
first failure is clearly inmates themselves, many of whom enjoy 
few advantages and bear many burdens upon their release.
    Second, however, the system also fails the American public. 
Indeed, many released inmates will commit violent crimes on 
innocent victims.
    The government institutions and faith-based and community 
organizations addressing recidivism are addressing one 
question: How do we reform a system whose participants often 
return to the same old behavior which the system was originally 
designed to deter?
    As more States and more community and faith-based groups 
address recidivism, the need for a national strategy becomes 
clearer. Moreover, the recent Booker Supreme Court decision on 
sentencing guidelines may result in the release of many more 
prisoners than otherwise expected.
    The U.S. Department of Justice Young Offender Initiative, 
for instance, provides grants for State and community 
cooperation in parolee supervision and accountability. At the 
State level, Texas is considering placing its inmate release 
programs with the InnerChange Freedom Initiative, which already 
runs numerous programs in cooperation with the State.
    The witnesses assembled today have all brought down the 
rate of recidivism by making better men and women of released 
prisoners. All of them are heroes in our eyes.
    Today we will learn more about national strategies from two 
expert Members of Congress and a host of State, local and 
private sector leaders. We will have policymakers on the same 
panel with a current parolee and his mentor.
    On another panel, we will have reentry program graduates 
and reentry program leaders. We will also hear from a prison 
chaplain
who leads this vital reentry work from the moment inmates began 
their sentences.
    Thank you again for being here today. I look forward to 
hearing more about recidivism from our experts with us today.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T0377.001
    
    [GRAPHIC] [TIFF OMITTED] T0377.002
    
    Mr. Souder. Now I would like to yield to Criminal Justice 
Subcommittee Ranking Member Elijah Cummings of Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman; and I 
thank you for holding today's hearing on prisoner reentry, one 
of the most profound challenges facing America today.
    On any given day in America, as many as 2 million men and 
women are incarcerated in Federal and State prisons and local 
jails, more than 80 percent of whom are involved in substance 
use. In 1996 alone, taxpayers spent over $30 billion to 
incarcerate these individuals, who are the parents of 2.4 
million children. A fourfold increase in incarceration rates 
over the past 25 years, largely a result of efforts to protect 
communities from drugs and violent crime, has spawned problems 
and challenges of its own.
    Each year, 630,000 individuals leave State and Federal 
prisons and return home. All too often, they are ill-equipped 
to fully participate and constructively as members of families 
and communities to whom they return. The reentry or 
reintegration into civil society of these individuals 
represents an enormous challenge that requires the involvement 
of multiple layers and sectors of society.
    Inmates often leave prison with little preparation for life 
on the outside or assistance in their reintegration, increasing 
the likelihood they will be returned to prison for a new crime 
or parole violation. This cycle of removal and return of large 
numbers of young adults, mostly men, is especially pronounced 
in communities that are already experiencing enormous social 
and economic disadvantages.
    The importance of prisoner reentry as a societal concern in 
my State of Maryland cannot be overstated. In 2001, 9,448 
people were released from Maryland prisons. That is nearly 
twice the number released two decades ago. During 2001, 97 
percent of all men and women released from Maryland prisons 
returned to communities in Maryland. Of those prisoners who 
returned to Maryland, well over 59 percent returned to one 
jurisdiction in the State, Baltimore City. The flow of 
prisoners was further concentrated in a small number of 
communities within Baltimore City, many of them in my district.
    A recent study showed that 30 percent of the 4,411 released 
prisoners who returned to Baltimore City returned to just 6 of 
55 communities. These high-concentration community areas in 
Baltimore, which already face great social and economic 
disadvantages, may experience reentry costs to a magnified 
degree. In addition, while these numbers represent individuals 
released from Maryland prisons after serving sentences of 1 
year or more, it is important to note that approximately 5,000 
additional inmates are released to Baltimore City each year 
after having served jail time, typically less than 1 year.
    Release presents offenders with a difficult transition from 
the structured environment of the prison or jail. Many 
prisoners after release have no place to live, no job, family 
or social support. They often lack the knowledge and skills to 
access available resources for adjustment to life on the 
outside, all factors that significantly increase the risk of 
relapse and recidivism. In addition, legal measures designed to 
create disincentives for drug abuse and crime can complicate 
efforts to reestablish a foothold in society.
    In recent years, the high rate of recidivism has generated 
broad-based interest in finding effective ways to address 
prisoner reentry issues across many sectors of society. For its 
part, Congress has authorized nearly $100 million for reentry 
initiatives involving various agencies.
    Our first two witnesses today are colleagues who have 
worked on a bipartisan basis to produce legislation that will 
renew and improve Federal reentry programs. I would like to 
commend both Representative Rob Portman and Representative 
Danny Davis for their attention and commitment to this very 
serious issue of reentry and for your work on your legislation 
that has garnered support from many quarters. It is encouraging 
to see this problem, which affects my district so severely, 
being recognized so broadly and addressed on a bipartisan 
basis.
    I supported H.R. 4676 as a cosponsor in the last Congress, 
and I intend to do the same when it is reintroduced in this 
Congress. I would be remiss not to say, however, that there are 
serious impediments to successful reentry that are not 
addressed in this bill. Some of them are of Congress' own 
creation. The Federal student aid ban, which denies education 
aid to applicants who have been convicted of a drug crime, is 
but one of these. We have discussed it at length in this 
committee. I hope that, as this bill moves forward, we can work 
together to make it as comprehensive as we can. A comprehensive 
approach to reentry will provide ex-offenders their best chance 
to become full and constructive participants in our society, 
while making our communities safer.
    To help us understand the challenges of reentry and the 
strategies that are being employed to address them, we have a 
diverse panel of witnesses who include representatives of 
government agencies, service providers, ex-offenders, mentors 
and advocates. I would like to thank all of our witnesses for 
their participation in today's hearing and extend a particular 
welcome to Mr. Felix Mata, who manages Baltimore City's Ex-
Offender Task Force on behalf of our mayor, Mayor O'Malley.
    I look forward to the testimony of all of our witnesses, 
Mr. Chairman, and, with that, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T0377.003

[GRAPHIC] [TIFF OMITTED] T0377.004

[GRAPHIC] [TIFF OMITTED] T0377.005

[GRAPHIC] [TIFF OMITTED] T0377.006

[GRAPHIC] [TIFF OMITTED] T0377.007

[GRAPHIC] [TIFF OMITTED] T0377.008

[GRAPHIC] [TIFF OMITTED] T0377.009

    Mr. Souder. Let me first, before I see if further Members 
have opening statements, since it is our first hearing of the 
year and we have, as I mentioned earlier, not organized and 
won't be until next week officially, introduce a number of our 
Republican Members, three of whom are new to Congress.
    Congresswoman Harris has been a member of this committee 
for some time. Welcome. Congressman McHenry from North 
Carolina. Congressman Westmoreland from Georgia. Congressman 
Porter, who has been a member of the committee before, from 
Nevada. Congressman Dent from Pennsylvania. Welcome to our 
committee.
    On the Democratic side, these are our stalwarts on the 
Subcommittee on Criminal Justice. In addition to Ranking Member 
Mr. Cummings, Mr. Ruppersberger of Maryland, our delegate and 
honorable representative from the District of Columbia, Eleanor 
Holmes Norton, who has been very active in this committee, and 
Mr. Clay from Missouri. We thank you all for your leadership.
    Congresswoman Harris, do you have any opening comments?
    Ms. Harris. Yes, I do, Mr. Chairman. Thank you, and thank 
you for scheduling this hearing on such an important issue.
    Before I begin, I want to commend you, Mr. Chairman, and 
the members of the committee on your vision and aggressiveness 
concerning this issue, and I also want to applaud Congressman 
Rob Portman for his outstanding leadership as well. Together, 
we will produce safer communities and neighborhoods for our 
families.
    I had the opportunity to testify before Judiciary as a 
witness with Congressman Portman in the last congressional 
session, because criminals who have used society's second 
chances to commit further crimes have an undeniable effect on 
our communities, and tragically their actions often affect our 
most vulnerable citizens, our children.
    According to the Bureau of Justice Statistics, of the more 
than 272,000 persons released from prisons in 15 States in 
1994, an estimated 67.5 percent were rearrested for felonies or 
serious misdemeanors 3 years later. Almost one-half were 
reconvicted. These numbers point to a deeply troubling trend in 
our criminal justice system; and, more disturbing, a Department 
of Justice study indicates that sex offenders are four times 
more likely to be rearrested for sex crimes than non-sex 
offenders.
    Last year, in my congressional district, we experienced an 
unspeakable tragedy that was allegedly caused by a repeat 
offender. A young girl, an 11-year-old, Carlie Brucia, was 
kidnapped, brutally raped and murdered. Following the arrest of 
Carlie's accused murder, we learned that this man should have 
been behind bars when the crime took place. He possessed a long 
history of criminal activity, including conviction for 
aggravated battery. He had been arrested 13 times and placed on 
probation three times since 1993. In fact, he was in police 
custody on an unrelated cause when he was linked to this crime.
    In response to this tragedy, I introduced legislation 
entitled Carlie's Law during the 108th Congress. This bill 
would have expanded the grounds for mandatory revocation of 
probation and supervised release, encompass violent felony 
crimes or an offense intended to facilitate unlawful sexual 
contact with a minor.
    While we must ensure that dangerous criminals remain where 
they belong, in prison, I also strongly believe we must offer 
more opportunities for rehabilitation. Prisoners must have the 
opportunity to do more than sit idly. That is why I support 
giving prisoners the opportunity to learn a skill and achieve 
their GED.
    The bill that Congressman Portman introduced in the 108th 
Congress proposed a comprehensive grant program consisting of 
educational, vocational and rehabilitation opportunities for 
individuals that are reentering society. This legislation 
continues to create a meaningful effort to reduce criminal 
recidivism.
    We might also attack this crisis by learning from 
outstanding successes in State and local programs. Sheriff 
Charlie Wells in Manatee County, FL, has operated a successful 
boot camp for juvenile repeat offenders since 1993. This 
program includes a tough physical and academic regime that 
focuses on rehabilitation, not abuse, and for over 10 years the 
Camp has reformed 55 percent of its repeat juvenile offenders.
    So as we focus on examples like this and programs across 
the Nation, I think we can make tremendous progress in battling 
criminal recidivism and focusing heavily on these issues 
relating to security in the 109th Congress.
    Let us remember that nothing is more fundamental to this 
Nation than the ability of our children to walk and run and 
play in our communities without fear. For this reason, I look 
forward to this committee on the issue of criminal recidivism 
and prisoner reentry programs to reduce the likelihood that 
convicted offenders become repeat offenders.
    Thank you.
    Mr. Souder. Mr. Ruppersberger.
    Mr. Ruppersberger. Mr. Chairman, thank you for having this 
hearing on a very important issue. Congressman Cummings, thank 
you for your dedication.
    I also want to acknowledge Congressmen Portman and Davis. 
It is great to see a Republican and Democrat sitting together 
at the table, working together to help resolve this issue.
    Obviously we need to do something, because the current 
system that we have right now just is not working. I was a 
former prosecutor, and I understand the burden that recidivism 
creates on local law enforcement and on all of our local 
governments. In fact, all levels of government must increase 
the priority of combating recidivism and create new and 
innovative ways to help prisoners or people who have been 
arrested before if we are to be successful.
    As Baltimore County executive in the State of Maryland, I 
would say, when I had that position, Elijah Cummings was one of 
my Congressmen. We developed two programs that I would like to 
just briefly talk about, because I think it is so important 
when we have a hearing we talk about solutions, and I think 
that is what you are here today to talk about.
    The first program was the Police Athletic League. We made a 
policy decision to put a Police Athletic League in every 
precinct in our county. Our county has less than 800,000 
people. As a result of having the police and our recreation and 
parks working together in a non-combative way with police 
officers, we were able, after the program got started, to get 
5,000 juveniles off the street.
    In order to be able to get the kids or children that we 
really needed to get off the street, we developed a program 
with karate, because then the tough guys would want to come and 
learn karate. Once you get them in that program, you hook them, 
you develop leadership skills, you work with them on all sorts 
of problems that we needed to deal with.
    It is important that we deal with an issue before it gets 
to the point where someone is going to commit a murder, armed 
robbery or whatever.
    There was another program that was extremely successful 
called the Juvenile Offenders in Need of Supervision. What we 
found is there is such a burden on all of the people involved 
in the criminal justice system, parole officers who might have 
500 clients and all they can do is just check in, have them 
check in and say what are you doing, there is no 
rehabilitation, helping to get jobs, dealing with issues 
involving drugs.
    This Offenders in Need of Supervision Program was a program 
where the police officers, as soon as an arrest would be made, 
would jump on the case, would bring a teen in, if that 
individual happened to be in school or work or whatever, bring 
them in, bring the parents in, and work with them so that they 
could get to them before they would get to the next level. That 
program was extremely successful. Monitoring that program, that 
made a tremendous difference in the rate of recidivism.
    I bring up two programs like that, because whatever we need 
to do, we have to have the right program, we need to hold the 
people in the program accountable for the funding, and then we 
need to move forward.
    The other issue, if we are going to deal with the issue of 
priorities, we have to fund priorities, and we cannot discount 
the fact that drugs is an important issue. I think the 
statistics say now between 75 and 80 percent of all violent 
crime is drug-related. If we don't deal with the issue of drugs 
and rehabilitation, we are going to continue to have this 
problem.
    Unfortunately, I have another hearing I have to go to, so I 
look forward to hearing about this hearing. I really think this 
is very important, and I again appreciate Congressmen Portman 
and Davis being here, and I look forward to your involvement in 
this issue. Thank you.
    Mr. Souder. I was afraid your phone call was from the 
Intelligence Committee, but they would probably use a laser to 
zap you.
    Delegate Norton.
    Ms. Norton. I want to thank you, Chairman Souder, because 
you have begun this session with an issue of prime importance 
to our country, a rising issue in the Congress, an issue that 
has arisen and thundered into the States who have primary 
jurisdiction over criminal matters.
    I want to thank Mr. Cummings for his leadership. It has 
been constant on these issues, because he lives so closely with 
these issues and has thought innovatively about them.
    The partnership between Mr. Portman and Mr. Davis is going 
to be important for anything we are able to do on this issue in 
the Congress, so I appreciate that, by working together, you 
have started us in just the right way.
    Mr. Chairman, this is the other side of the law and order 
equation. As you know from elementary algebra, both sides of 
the equation have to be in equipoise, and you keep working on 
it until you get it right from the time you are in the 6th 
grade. Well, we forgot about this side altogether. What this 
side is about is that these men and women are going to come 
here and live right alongside you and me in the communities 
that have seen them incarcerated.
    Everyone understands why the emphasis on law and order had 
to take place and has to continue to take place, particularly 
as this phase began in the early 1990's with a huge outbreak in 
crime. Everybody, particularly those who live in the inner 
city, were afraid of it. The first thing you do is try to get 
those who are responsible for that. That will always be the 
case.
    In many ways, there was a pronounced overreaction, 
especially in the Congress. The first results were irrational 
mandatory minimums, sentencing guidelines that are so extreme 
that the Supreme Court of the United States has now thrown them 
out. That happened after some of the most conservative justices 
on the court began to speak openly about how the criminal 
justice system was producing rank injustice, and here they were 
talking about mandatory minimums in the Federal system.
    Mr. Chairman, a felony conviction, deserved or not--and I 
am the first to concede that most of these convictions are 
deserved. It is too bad we haven't learned how to work as we 
must before people get such convictions. But a felony 
conviction is close to a death sentence in the job market, and 
everything else falls in the wake of the member of the family 
or the community that has that death sentence, those who would 
be dependent upon him and, ultimately, the community in which 
he lives.
    I say ``he,'' because while there is a growing number of 
women incarcerated, something about the socialization of women 
makes women less inclined to be in prison. So the rates have 
grown largely with respect to men. And if I may just put on the 
record who those men are, almost half of the men in prison are 
African American men. The effects of their incarceration and 
over-incarceration has been absolutely devastating to the 
African American family.
    Minimally, society that imposes employment death sentences 
on people has an obligation, if they don't care about the men 
and the women, to protect the rest of us. Even as you protected 
us by putting them behind jail, for goodness sake, protect us 
when they get out of jail. Because if indeed you get out of 
jail with nothing and nobody to help you, the last thing you 
knew how to do was the occupation that got you back in jail, 
and I can assure you that men who don't have any other way to 
live will find their way to that occupation if society does 
what we do.
    This is what we do. We say, you have a drug conviction and 
you are a kid and you got it when you were 17 years old? No 
Pell grants. Sorry. We know you were young. We know things may 
be better. A life sentence on getting you even to a community 
college with a Pell Grant. Out of jail, done your time. You 
say, for goodness' sake, I never want to see the inside of that 
again.
    And if you have been in Federal prison, you may have even 
learned a vocation. And what do you find? A whole set of 
occupations from which you are barred. Some of those 
occupations you trained for in prison.
    You want to be a barber? Many States say, not here.
    I am not sure what that has to do with most convictions. 
Got out and said, I got to find some way to improve my 
citizenship, and the first thing you find is you are a felon 
and in one-third of the States of the United States we are 
going to say to you, you will not be able to vote now, not in 5 
years, not forever. And you wonder why there is great 
bitterness and anger with people who served their time and just 
want some way out of all of this and find society offering them 
other kinds of sentences.
    Mr. Souder. Mr. Norton, if you can kind of----
    Ms. Norton. I feel this very deeply. You called a hearing. 
I will go more rapidly.
    Because the greatest impact and the reason I feel so 
passionately, Mr. Chairman, is because of an issue I think we 
share with you and with others across the aisle, and that is 
the impact on the African American family.
    I live in the communities Mr. Cummings does, where 70 
percent of the children are being raised by African American 
women alone, and these children go into the streets, no jobs, 
only drugs and crime available as opportunities for employment, 
and they go the way of their fathers. The over-incarceration of 
a whole generation of black men has condemned millions of 
American children, especially children of color, to poverty.
    The States, Mr. Chairman, are rebelling, largely because 
they are the ones that had to house most of these inmates, and 
the high costs were such that they began to look for other ways 
out. They have given us leadership on special diversion for 
first-time drug offenders with drug courts, and we need to 
follow suit for what the States are doing in this regard.
    You have Mr. Paul Quander here from the Court Services and 
Offender Supervision Agency, which has jurisdiction in the 
District of Columbia, because our inmates, our felon inmates, 
are in Federal prisons, in the Federal prison system, and what 
it does for inmates afterwards is the best in the United 
States. I am very pleased you invited him here.
    Mr. Chairman, I hope you have started something by the way 
you have started off the 109th Congress. Thank you for your 
indulgence.
    Mr. Souder. Thank you.
    We are joined by Congressman Shays, the vice chairman of 
the full committee, a subcommittee chair here. Thank you for 
coming.
    Mr. Shays. Thank you. I know we need to get started. I want 
to thank you, Mr. Chairman, and Mr. Cummings for having this 
hearing.
    It would be nice to deal with what is really a scandalous 
issue on a bipartisan basis, and I feel the passion that Ms. 
Norton feels and I understand it, and it is deserved.
    I just want to thank Danny Davis and Rob Portman for also 
acting on a very bipartisan basis for something that truly is 
scandalous. It is a solvable problem, and it is something we 
should be able to do with a lot of heart, emotion and common 
sense.
    Mr. Souder. Mr. Clay.
    Mr. Clay. Thank you. I have a brief statement.
    I would like to thank you and Ranking Member Cummings for 
holding this hearing on an issue of critical importance, and 
that is reducing the recidivism rate. I am hopeful that our 
distinguished panelists will offer constructive and thoughtful 
proposals on how the Federal Government can be an effective 
partner in helping ex-offenders successfully reintegrate into 
communities.
    According to recent reports, over 630,000 people will 
complete their sentences and be released into society this 
year. It has been estimated that approximately two out of every 
three people released from prison in the United States are 
rearrested within 3 years of their release.
    Given the record number of ex-inmates leaving prisons and 
returning to communities, it is imperative that Congress focus 
on ways to reintegrate ex-offenders and close the revolving 
door of the American prison system. The billions spent on 
corrections expenditures and the costs imposed on society make 
it blatantly clear that successful reentry would ensure both 
safer communities and a more efficient use of tax dollars.
    I am hopeful that this hearing will provide Congress an 
opportunity to reshape our policies and address issues such as 
the lifetime ban from receiving welfare, food stamps, college 
tuition assistance and public housing assistance. These 
policies make it very difficult for prisoners to reintegrate 
into society and make it more likely that they will return to a 
life of crime.
    We can genuinely give prisoners a second chance at 
successful reintegration into society by rescinding 
counterproductive laws. It is my hope that we can broaden the 
discussion and address proposals that will lead to a more 
effective system.
    I thank you, Mr. Chairman, and yield back.
    Mr. Souder. Thank you very much.
    Before proceeding, I would like to take care of a couple of 
procedural matters. I would ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions for the hearing record, that any answers to 
written questions provided by the witnesses also be included in 
the record.
    Without objection, it is so ordered.
    I also ask unanimous consent that all exhibits, documents 
and others materials referred to by the Members and the 
witnesses may be included in the hearing record and that all 
Members be permitted to revise and extend their remarks.
    Without objection, it is so ordered.
    Our first panel is composed of our colleagues, 
Representative Rob Portman and Representative Danny Davis. By 
tradition, we do not administer an oath to Members of Congress, 
because we just took one a month ago. As an oversight 
committee, we generally swear in all of our witnesses. We are 
exempt. We presume your other oath binds you here.
    Mr. Portman, thank you for your long-time leadership on 
this issue. Thank you for being patient this afternoon.

  STATEMENT OF HON. ROB PORTMAN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Portman. Thank you, Chairman Souder.
    We are honored to be here to testify before you today on 
prisoner reentry and also reducing recidivism, and we commend 
you for raising the profile of this issue, for providing a 
forum to discuss this issue.
    I also have to comment that we also appreciate the 
expertise of your subcommittee and full committee. Just looking 
around the room, we have worked closely with Ranking Member 
Cummings over the years on drug prevention, community 
coalitions, some of the issues related, as Mr. Ruppersberger 
pointed out, to this issue; and I appreciated hearing from him 
again this afternoon, as well as other members of your 
committee.
    I will say, the legislation we are about to discuss does 
not have the answers to all of our problems. It does not 
include every provision that everyone on this panel or 
certainly in this room would want, and you will hear probably 
about that during the testimony from the experts who follow us. 
But it is an important step in the right direction.
    With the specific reference, Mr. Cummings, to the student 
aid ban, I think you will be pleased with the way we address 
it. We want to work with you on that. We plan on reintroducing 
the bill, as you know, next week. We worked closely with you 
and Mr. Souder last year on that, and I think we can address at 
least most of your concern with regard to how the student aid 
ban would operate, that the infraction would occur not prior to 
but during the time Federal aid was being provided. So we can 
talk about that. But I think, although this bill will not 
address every concern raised today, that one I hope you will 
find it to be satisfactory.
    We appreciated working with Mrs. Harris last year on 
Carlie's Law. We included some of those provisions. We are 
working with her again this year.
    Ms. Norton raised some great points that I think you will 
find we address in this legislation with regard to recidivism 
and families, and that is an important part of this 
legislation.
    Mr. Shays has been an expert on these issues and a leader, 
and we appreciate the fact the vice chair of the full committee 
is here, because that will help your committee deal with these 
issues.
    Mr. Clay talked about the partnership. That is really what 
this bill is about, the Federal Government being a better 
partner. It is not the Federal Government stepping in to our 
local communities and solving our problems, but it is providing 
that leverage, we hope, at the State and local level and with 
community organizations, even faith-based groups, to be able to 
better handle this problem.
    Prisoner reentry is about reducing and preventing crime, 
but it is also, as Ms. Norton said, about restoring lives. Our 
view is we need to be both tough on crime but also smart on 
crime. We think this legislation has that balance. We need to 
be tough in keeping dangerous felons from returning and 
committing new crimes, but we also need to be smart in making 
sure that those who are coming home are given the most basic 
chance to start a new life and turn away from crime.
    You all talked about the numbers here this afternoon, and I 
won't get into great detail on that, but just now over 2 
million people being incarcerated, 97 percent of those people 
are going to get out of prison, and that is whether or not the 
Supreme Court changes what the sentencing guidelines are or 
not. People are going to get out of prison.
    As we talked about today, about 650,000 are being released 
from incarceration into our communities every year. Think about 
that, 650,000 people coming into our communities. So these 
reentry into community--these reentry numbers mean that we are 
all affected by it.
    Its success or failure has incredible implications for 
public safety, for the welfare of children, for family 
reunification, for our growing fiscal issues, and for community 
health. By doing a better job on offender reentry, we can 
prevent crimes, we can help strengthen our communities, and we 
can save taxpayer money.
    Unfortunately, according to recent data from the Department 
of Justice, as you have heard today, about two-thirds of those 
released from prison will be rearrested within 3 years. First 
and foremost, this offender reentry, then, is about preventing 
crime and keeping our communities safe, to try to reduce the 
high rates of recidivism. That will translate into, of course, 
thousands of new victims each year if we don't do something 
about it.
    The social and economic costs of a 67 percent recidivism 
rate is astounding. As Mr. Shays said, it is a crisis. It is 
one we need to get our hands around.
    Last session, we worked closely with colleagues on this 
subcommittee to help our States and communities better address 
the problem through this Second Chance Act. It is a bipartisan 
approach. It helps to better coordinate at the Federal level 
our Federal agencies and policies on prisoner reentry. It also 
increases the support to States and to community organizations 
to address this growing population of ex-offenders who are 
returning to our communities.
    The main focuses in the bill are four-fold: One, jobs; two, 
housing; three, substance abuse and mental health treatment; 
and, four, support for families.
    I want to express my sincere thanks to you, Mr. Chairman, 
for working with us closely last year and putting together some 
good legislation and being an original cosponsor.
    I also want to thank Representative Danny Davis, my partner 
in this, who did a terrific job in helping to put together a 
good, sensible, balanced bill, and also helped us to be able to 
be sure that this bill had balance in terms of its bipartisan 
cosponsorship.
    Elijah Cummings was one of our cosponsors last year, which 
was really critical in his role in our caucus and in the Black 
Caucus to move this forward. I want to thank him again on this 
subcommittee for his work.
    Also, Representative Platts on this subcommittee, 
Representative Cannon, Representative Owens and others who 
cosponsored the Second Chance Act last year.
    We plan to reintroduce the bill next week, and Danny Davis 
may talk a little more about that. But we hope we can again 
have a strong cosponsorship from this subcommittee and 
committee working toward getting this marked up this year and 
getting it to the President's desk for signature.
    The primary goal, as I said, is public safety in this bill. 
It makes funds available to conduct studies to determine who is 
returning to jail or prison, why they are returning, which 
present the greatest risk to community safety. This is data we 
don't have, and we need it.
    The bill also helps in development of procedures to assist 
relevant authorities in determining when release is 
appropriate, when it is not appropriate, and the use of data to 
inform this released decision.
    Again, that data is not there now. This would include the 
use of proven assessment tools to assess the risk factors for 
returning inmates and the use of technology to advance post-
release supervision.
    The reason I first got involved in this, as Mr. Cummings 
knows, is my involvement with treatment and prevention on 
substance abuse. The more I learned about this issue, as 
Representative Ruppersberger talked about, the more I saw this 
direct connection between substance abuse and recidivism.
    The numbers are just absolutely staggering. Fifty-seven 
percent of Federal, 70 percent of State inmates use drugs 
regularly before prison. The Bureau of Justice Statistics now 
tells us that they estimate the involvement with drugs or 
alcohol around the time of the offense is as high as 84 
percent. We are just not going to get at this issue, as was 
talked about earlier, without getting at this issue of 
substance abuse. The continuum of care that links former 
prisoners who receive treatment in prison to support in the 
community, without that continuum of care, recidivism is going 
to occur. We need to focus on that issue in particular. That is 
one of our four priorities in this legislation.
    There is lots of evidence that in-prison drug treatment 
programs are effective, both pre-release and post-release. The 
key, of course, is that this in-prison treatment is far more 
effective when it is coupled with treatment in the community 
after the prisoner is released. When there is not this 
continuum of care, access to AA meetings immediately 
afterwards, Al-Anon and so on, there is a higher failure rate. 
That is why re-entry programs are so important.
    Research shows, without post-release aftercare, results are 
almost the same as those inmates who didn't receive treatment 
in prison at all, which is interesting. So the need for post-
release continuity applies to every domain, including drug 
treatment, employment services, mental health counseling and 
parent training. It is critical to make sure the right 
connections are made during the re-entry to the community.
    There are several successful programs that serve many 
different populations, from adult men and women to juveniles. 
For example, NIDA, the National Institute on Drug Abuse study 
of a California Amity program, the California Amity program has 
shown a 75 percent return to custody rate after 3 years for 
offenders with no treatment. That return rate dropped to 27 
percent with in-prison treatment and aftercare.
    Return rates to prison of those offenders receiving 
treatment in prison but not receiving aftercare or continuing 
care were similar to those offenders receiving no treatment at 
all in prison.
    There are lots of other studies I was going to talk about. 
I am not going to mention them here. I will have them in my 
written remarks. I hope, Mr. Chairman, the subcommittee will 
have those as part of their report.
    The bottom line is, State after State, in Delaware, 71 
percent for new arrests, down to 31 percent. In Ohio, you will 
hear from Reggie Wilkinson who is going to testify in the next 
panel, the kind of success we have had there with our Ohio 
Department of Rehabilitation and Corrections. We have some 
great stories there where, by working with the communities in 
aftercare, we have been able to see huge success in reducing 
recidivism.
    The key element in these promising programs is this 
aftercare. Whether it be drug treatment, again, mental health, 
job training, parenting skills, a combination of these support 
services, successful completion and reduced recidivism depend 
largely on the availability of these services during the 
transition home, during the post-release period.
    Of course, the burden on our citizens is also a major issue 
here. Taxpayers are footing the bill for all of this. The 
average cost to house a Federal inmate is over $25,000 a year, 
so there is a big issue here with regard to the taxpayer, and 
with our deficit, this is an issue that this Congress needs to 
be focused on. The average cost at the State level is a little 
less, about $21,170 annually. Of course, these don't include 
the cost of arrest and prosecution, nor do they take into 
account the cost to victims.
    A modest expenditure to help transition offenders back into 
the community can save taxpayers thousands of dollars because 
of all these costs.
    There is a study in Washington State, a 2001 study, showing 
the best re-entry programs can be expected to deliver 20 to 30 
percent reductions in recidivism and crime rates. If that is 
true, we will save billions of dollars, if we can just receive 
that kind of benefit from this program, a reduction of 
recidivism of 20 to 30 percent. We think we can do even better, 
but certainly we can help at the Federal level to make this 
happen.
    Beyond these fiscal issues, one of the most significant 
costs of prisoner reentry is the impact on children, the 
weakened ties among family members talked about earlier, the 
destabilization of our communities. As you all know, the number 
of kids with a parent in a Federal or State correctional 
institute has increased over the last decade dramatically. It 
has increased 100 percent, to about 2 million kids. When 
expanded to children with parents under some form of correction 
supervision, it is closer to 10 million children now, we are 
told.
    This is one of my biggest concerns. The children at risk 
for drug abuse and delinquency need our attention, and they are 
more at risk when they are in this situation. This bill does 
provide resources to grandparents and other kinship care and 
foster care providers who care for children during parental 
incarceration. It also provides State and local government with 
resources for family based drug treatment to treat parents and 
their children as a complete family unit.
    Last year, Mr. Chairman, as you know, during the 
President's State of the Union address, he made a case for the 
need to address our reentering population. He put the issue in 
perspective by saying, ``America is the land of the second 
chance, and when the gates of prison open the path ahead should 
lead to a better life.'' That is why we call our bill the 
Second Chance bill.
    During this address, he announced his reentry initiative 
with a strong focus on job training, transitional housing and 
prisoner mentoring from faith-based groups. This is an 
important aspect of our Federal response to reentry. Our bill 
would authorize a small component of this plan and complements 
the President's larger reentry initiative.
    Together, we think this provides for a comprehensive plan 
to drastically change how we serve those men and women and how 
we keep our communities safer. By addressing the most basic 
needs of ex-offenders coming home, we can reduce the chances of 
reoffending, and we can improve their success as productive, 
contributing citizens.
    I thank you, Mr. Chairman, for inviting us to testify 
before you today, and we look forward to trying to answer any 
questions you might have.
    Mr. Souder. Thank you.
    [The prepared statement of Hon. Rob Portman follows:]

    [GRAPHIC] [TIFF OMITTED] T0377.010
    
    [GRAPHIC] [TIFF OMITTED] T0377.011
    
    [GRAPHIC] [TIFF OMITTED] T0377.012
    
    [GRAPHIC] [TIFF OMITTED] T0377.013
    
    [GRAPHIC] [TIFF OMITTED] T0377.014
    
    [GRAPHIC] [TIFF OMITTED] T0377.015
    
    Mr. Souder. Before going to Mr. Davis, the best estimate is 
that at 2 o'clock, in about 6 minutes, we are going to start a 
series of four votes. What we will do after Mr. Davis' 
statement is try to get the questions in so we don't have to 
hold you so we can get to the second panel. We will go a little 
bit into the first vote.
    It is great to have on our subcommittee one of our most 
active Members and a co-leader of this effort, Congressman 
Davis. We look forward to hearing your testimony.

  STATEMENT OF HON. DANNY DAVIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Davis of Illinois. Thank you very much.
    Let me thank you, first of all, for your leadership and 
sensitivity that you have displayed not only to this issue but 
also the sensitivity in rescheduling the hearing so that those 
Democrats who would have found it difficult to be here and at 
the retreat can now do both.
    I also want to commend the ranking member, Mr. Cummings, 
for his upstanding leadership not only on this issue but many 
others, especially those related to crime and justice in our 
country.
    Of course, it is good to be here with Delegate Eleanor 
Holmes Norton and Representative Shays, two of the most 
outstanding Members, along with Representative Clay.
    One of the highlights of being a Member of Congress has 
actually been working with Representative Portman on this 
legislation. I want to commend him for his outstanding 
leadership, for his sensitivity, his understanding and 
awareness of what I consider to be one of the most difficult 
challenges and problems facing urban America especially.
    All of us are aware of the fact that rehabilitating and 
reintegrating prisoners back into society continues to loom as 
one of the great needs of our day. The high rates of 
incarceration over the last decade have made this need all the 
more urgent as large numbers of individuals with felony 
convictions are coming to the end of their sentences.
    During his State of the Union address last year, President 
Bush said, ``600,000 inmates will be released from prison back 
into society this year, and these Americans are in need of 
help.''
    We can expect on an annual basis that this large number of 
released inmates from prison will continue for the next 5 years 
at least and beyond.
    Also, let us be mindful that local jails are releasing 7 
million people each year. Many of these individuals, as you 
have already heard, are never able to find a decent place to 
live, cannot access various entitlement programs such as public 
housing, financial assistance for college and, in some 
instances, food stamps and are oftentimes denied employment 
because of their past criminal convictions.
    Statistics show that nearly 52 percent of all of these 
individuals will end up back in jail. As these men and women 
transition from incarceration to freedom, what they need most 
are comprehensive reentry solutions. With implementation of the 
Second Chance Act, Community Safety Through Recidivism 
Prevention, it calls for improving and establishing an 
effective reentry system to assess and change those barriers 
that prevent ex-offenders from making a successful transition 
from prison to normal community life.
    The Second Chance Act contains demonstration projects that 
will focus on providing ex-offenders with education, job 
training, substance abuse and after-care treatment and assist 
ex-offenders with employment and securing housing upon release 
from prison.
    In addition, it will create a Federal interagency task 
force to identify programs and resources on reentry and ways 
for improving and changing the barriers that prevent ex-
offenders from living a normal, responsible and productive life 
in society.
    Also, the Second Chance Act will establish a resource 
center for States, local governments, service providers, 
corrections and community organizations to collect and 
disseminate best practices and provide training and support 
around reentry.
    The Second Chance Act is a good first step that will 
provide a directional approach as to what works in trying to 
increase public safety, reduce the cost of crime and lower the 
recidivism rate. Prevention, treatment and rehabilitation are 
just as important as incarceration. These men, women and 
children still have to live in our communities.
    Increasing public safety is a primary concern of our 
communities and neighborhoods throughout the country. Although 
we know it is going to be difficult, it can be done. For 
example, in the State of Illinois last year there were 57 job 
titles that an ex-offender could not hold by statute. The 
legislature has removed 18 of those, and now there are 38 
occupational categories where you can't work without some form 
of waiver.
    For example, ex-offenders were not allowed to be a barber, 
to cut hair, a nail technician, cosmetologist, cannot be a 
custodian in a hospital or cut the grass around a medical 
center or watch dishes at a nursing home.
    Many of these ex-offenders were convicted of nonviolent 
offenses, mainly drug offenses, so it is extremely difficult 
for ex-offenders to find housing and get a job after they have 
paid their debt to society. We must ensure that everyone has 
the opportunity to be productive citizens in this country.
    Everyone deserves a second chance. The bill before us now 
by my colleague Rob Portman and I will start the process when 
it becomes law to give ex-offenders hope to transition 
themselves back into community life.
    Finally, in my district I work a great deal with people in 
the community. I have 31 task groups and work groups. And one 
of those is an ex-offenders task force which represents a broad 
group of members from national, local civil rights 
organizations, ex-offenders themselves, law enforcement 
officials, elected officials, community actions, faith-based 
organizations, block clubs, businesses.
    The task force convened several focus meetings to explore 
the problems and make recommendations, and in every instance 
one of the basic needs that ex-offenders indicated that they 
had was the need to find a place to stay, the need to have a 
house, the need to have a place that they could go to once they 
are released from prison.
    Therefore, as a result of that, we introduced H.R. 2166, 
the Public Safety Ex-offender Self-sufficiency Act, which is 
designed to provide structured living arrangements for ex-
offenders by building 100,000 units of SRO-type housing 
throughout the country, using a system of tax credits we call 
an ex-offender tax credit, where States would receive credits 
on the basis of the number of ex-offenders living in the State.
    Finally, I agree with Representative Portman. There is no 
way that you can seriously have a reentry program that works 
without substance abuse treatment. The correlation between drug 
use and crime commission is so high until, in many instances, 
they are almost one and the same. So if we are going to 
seriously rehabilitate ex-offenders and help them find their 
way back, then we must provide resources for treatment. We call 
it treatment on demand, where when a person decides that they 
are ready for drug treatment they ought to be able to receive 
it.
    So I thank you, Mr. Chairman, for the opportunity to 
testify. We put that initiative on the ballot in Cook County in 
the last election. A group of community residents, ex-offenders 
themselves, and 1.2 million people in Cook County voted to say 
yes we want to put some more money into substance abuse 
treatment, because we know it is a good investment.
    I thank you very much and appreciate being here.
    Mr. Souder. Let me start with a basic question here. I know 
this was heavily debated when you drafted the bill, and a forum 
like this is both to identify the problem and say, look, we 
have a problem in this country. This hearing will hopefully 
help make us aware of it, but then also look at the particular 
legislation and say how are you addressing this. First off, we 
understand; but I am not sure everybody who may be here or 
watching--and this is an authorizing bill, not an 
appropriations bill, so the money isn't real money, it is 
guideline money.
    Now, even with it in that context, the bill is $112 
million. We have multiple different subsections, and this leads 
to two different types of things that we are going to have to 
deal with as we look at legislation like this: Can you really 
make a difference with $112 million, and how do you see that 
leveraged. And, second, given the budget pressures that we 
have, do you think we can get $112 million through an 
authorization? It's a challenge from both ends, and I know it's 
what you have been struggling with.
    Mr. Davis of Illinois. I don't know about giving him the 
money that I do.
    Mr. Portman. And you say that I am responsible for getting 
the money.
    You have put your finger on it, Mr. Chairman. We initially 
actually chose $100 million, and then we just liked that 
mentoring program so much we couldn't find a way to cut it 
back, so we are figuring $112 million this year. The reason we 
tried to keep it at that level was because of the physical 
situation we find ourselves in this country. We are cognizant 
of the fact that it is going to be tough to get an 
authorization bill done at much over 100. It has to do with how 
we work our process in Congress and the Suspension Calendar and 
so on.
    But having said that, we also, you know, have been very 
careful to keep within that bill, within that $112 million, 
which is substantial resources, some real leverage points for 
State and local governments to be able to take what we are 
giving them and leverage it into something more.
    The provision of the data I talked about earlier, just 
providing data so that communities know where to better target 
their resources; no one else is doing that. The Federal 
Government really needs to provide that.
    Danny talked about some other issues that we think will 
encourage innovation at the State and local level by having a 
little Federal seed money. We will get them to do some things 
that are innovative and we will help the whole country, because 
by funding something that works, then we can spread that 
information, disseminate it, and we do, you know, we do have a 
clearing house of information to go out around the country, of 
best practices, what does work and doesn't work, you know.
    Mr. Ruppersberger talked about a couple of programs that he 
thought worked very well in his county in Maryland. We ought to 
have a hearing about that nationally and get that information 
out. So it is not all the money that, again, some folks would 
like to hear, and maybe you will hear that in your testimony.
    On the other hand, given the budget realities, we think 
that, you know, it's adequate to make a big difference, and we 
think it's doable in the context of our budget deficit. The 
return on investment is incredible, too, as we talked about 
earlier. If we can get this done, it will result in a 
tremendous return on the investment to the taxpayer.
    Mr. Davis of Illinois. And I think that's really the key. 
It's a minor investment in reality because the returns are so 
great. I mean, just imagine, if you can redirect 100 ex-
offenders, some of whom might have committed a crime that could 
have cost millions of dollars. I mean, one hit on the head, 
when a person is trying to get a $10 fix on a nickel bag, can 
put a person in the hospital that will run up a hospital bill 
for maybe a half million dollars that would have been saved, 
because had the individual not been in their state of need, 
then this crime perhaps never would have occurred. And so in 
addition to the return relative to the savings, also the return 
in terms of the prevention of a crime and the prevention of a 
trauma and a tragic situation that develops for someone else.
    So I think as tough as it is, I think the American people 
would appreciate that kind of expenditure because it's a great 
investment.
    Mr. Portman. Can I give you a back-of-the-envelope 
estimate--not to spend too much on this question--but let's 
assume that of the 650,000 State and Federal prisoners getting 
released every year, about half go back to prison within 3 
years. We have talked about two-thirds. Well let's be 
conservative. That translates into about 240,000 ex-offenders 
going in at about $25,000 a year at Federal level. Let's assume 
we can reduce recidivism by about 20 percent, being 
conservative. We believe there are incentives in here to be 
able to achieve that over time. That is $6 billion in State and 
Federal prison costs.
    And so we think although this is a substantial amount of 
money, it is money that will be well invested and the return to 
the taxpayer will far exceed.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. I just have one question, since we are 
limited on time.
    One of the things that, you know, as you all were talking, 
I was thinking--we had some witnesses come here on another 
issue, and they were talking about effective integration of 
services and not reinventing the wheel, not necessarily on this 
issue, but I was just wondering, in negotiation a lot of times 
we come in with programs, and there are already mechanisms.
    For example, in the city of Baltimore, we have job-finding 
agencies. And sometimes folks are so busy trying to reinvent 
the wheel that they go past these various entities instead of 
trying to, you know, bring them all together.
    I guess the thing I am concerned about is what the chairman 
was just referring to. If I could spend, you know--if I had an 
unlimited budget, I would like to have one for this because it 
is just that important. But I am just being realistic, looking 
at our fiscal restraints in this time that we are in.
    I was just wondering whether you all had--is the program 
aimed also at pulling in agencies, State and Federal, even 
private, that might already have these things that are 
important, and them being a part of the process, as opposed to 
trying to reinvent the wheel, you come up with a nice new 
wheel, but the effectiveness, because you have to spread the 
money so far, is not as great as it could be when those pieces 
are already out there.
    Mr. Davis of Illinois. Well, I think it speaks to the issue 
of coordination, and I would agree with you that there are many 
disparate programs that exist. But I think this helps to bring 
those programs and centralize them so that everybody, and if 
not everybody, many people now know what is, in fact, 
available.
    But I think the other thing that it does, as we continue 
the discussion, the big problem is you can have a program to 
find jobs, but if companies won't hire anybody, you just got a 
program.
    And my point is that it helps raise the level of awareness 
to the extent that potential employers begin to understand that 
it is also in their best interest to find ways to help put some 
of these individuals to work.
    Mr. Cummings. One of the things I had established long 
before I came to Congress, a volunteer program to help inmates 
coming out of our boot camp. We found that they were very--the 
boot camp seemed to be very effective. But once they got out of 
the boot camp, they went back, as I think Congresswoman Norton 
was saying, to the same neighborhood, hanging with the same 
people, doing the same thing. So they went back.
    One of the things that we discovered, though, was that if 
we could redirect, you know, the people that they hung with and 
the things that they did, and could find them jobs--and we also 
had some volunteers that come in and do counseling, basically 
the kinds of things you are talking about--it could be very 
effective. But it was very effective. I was so glad to hear you 
talk about jobs, both of you, because without a job you go 
right back to the same old things.
    On that note, Congressman Davis, one of the things that 
happened is that as people began--companies began to hire 
people from our little program, they did--the guys went out and 
ladies went out there and did just such a great job, they 
started asking us for the folks that were in the program, 
because, you know--so one thing led to another. So there is a 
rainbow out here, we just have to make sure we can reach it.
    Mr. Davis of Illinois. Especially if we train them well.
    Mr. Cummings. Right.
    Mr. Davis of Illinois. Work ethic. All of the things that 
go with it. It is kind of a two-way street. You have to meet 
the individual halfway if the individual is ready to do that. 
That's what we have to attempt to do.
    Mr. Souder. We only have 5 minutes left in the vote. I am 
going to dismiss the first panel.
    On the second panel, will anybody who is back start with 
the questioning. Thank you very much for your participation.
    This committee stands in recess.
    [Recess.]
    Mr. Souder. The committee will come back to order.
    As you heard me refer to in the first panel, as an 
oversight committee it's our standard practice to ask all of 
our witnesses to testify under oath. So will you each stand, 
raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that all the witnesses have 
answered in the affirmative. My understanding is that Dr. 
Wilkinson, Reginald Wilkinson of Ohio has a 3:30 flight. And so 
are you still going to try to make that? But we are going to 
put you--we are going to put you----
    Mr. Wilkinson. I would still rather go first.
    Mr. Souder. If you need to go first I understand that. This 
vote, four votes, took a long time.
    Thank you very much. Dr. Wilkinson.

STATEMENTS OF REGINALD A. WILKINSON, Ed.D., OHIO REHABILITATION 
   AND CORRECTIONS AGENCY; LORNA HOGAN, MOTHER ADVOCATE, THE 
 REBECCA PROJECT FOR HUMAN RIGHTS, WASHINGTON, DC; FELIX MATA, 
  BALTIMORE CITY'S EX-OFFENDER INITIATIVE, MAYOR'S OFFICE OF 
 EMPLOYMENT DEVELOPMENT; PAUL A. QUANDER, DISTRICT OF COLUMBIA 
COURT SERVICES AND OFFENDER SUPERVISION AGENCY; AND JIM McNEIL 
   AND DAVID RUSSELL, MENTOR AND PROTEGE IN THE INNERCHANGE 
                        FREEDOM INITIATE

               STATEMENT OF REGINALD A. WILKINSON

    Mr. Wilkinson. Thank you.
    Chairman Souder, members of the subcommittee, I appreciate 
the opportunity to provide testimony at this oversight hearing. 
I am now in my 32nd year as a correctional administrator and my 
14th as director. A more detailed account of my experience is 
included in my written testimony for your review.
    I would like to provide the committee with a general 
overview of the importance of prisoner reentry to the field of 
corrections. The field of corrections has embarked upon a major 
reexamination of offender reentry. In a short span of time, an 
impressive array of efforts has been launched at all levels of 
government to build more effective and innovative responses to 
the notion of offender reentry.
    For instance, the Urban Institute has hosted a series of 
reentry round tables to assess the state of knowledge and to 
publish specialized reports on this topic.
    The National Institute of Corrections in 2000 hosted two 
national public hearings on a variety of correctional topics. 
One such topic was offender reentry. As a result, the 
Transitions from Prison to Community Project was launched.
    The U.S. Department of Justice and other Federal agencies 
forged a unique partnership by providing a total $100 million 
in grant funding to all 50 States to address reentry for 
violent offenders. This project is known as the Serious and 
Violent Reentry Offender Initiative.
    As this committee is well aware, and as you have heard from 
the previous witnesses, President George W. Bush in his 2004 
State of the Union address urged Congress to support the 
reentry transition of offenders.
    The President's statement that America is the land of 
second chances will resonate with corrections professionals for 
many years to come. We are pleased that Cleveland, OH hosted 
the first Annual National Conference on Offender Reentry, 
sponsored by the U.S. Department of Justice. The Council of 
State Governments Reentry Policy Council has recently released 
a landmark report that offers a comprehensive set of bipartisan 
consensus-based recommendations for policymakers and 
practitioners interested in improving the likelihood that 
adults released from prison or jail will avoid crime and become 
productive and healthy members of families in our communities.
    The report of the reentry Policy Council reflects a broad 
consensus achieved among diverse experts in these areas. The 
Second Chance Act is consistent with those recommendations 
enunciated in the council report, in that it recognizes the 
many complex issues affecting individuals released from prison 
or jail which must be addressed to reduce recidivism.
    I have wrestled with the issue of reentry for much of my 
professional life, and I have seen how our approach to reentry 
can and should be reinvented to improve the safety and 
stability of America's families and communities.
    I would like to recognize the unprecedented leadership of 
Ohio Congressman Rob Portman and Congressman Danny Davis and 
other cosponsors of this vital legislation. This bill, when 
adopted, will exert a substantial impact on reducing offender 
recidivism, save precious taxpayer dollars, and provide tools 
to address the myriad substance abuse, mental health, and other 
problems. It will further strengthen families in communities 
across the country. It is a bill that speaks to sound public 
policy and effective correctional practice.
    It is notable that approximately 650,000 persons, as you 
heard earlier today, will be released annually from State and 
Federal prisons to communities across this Nation.
    Criminologist Dr. Joan Petersilia explained that the 
problem of offender reentry remains quite serious. Her dismal 
conclusion is that from available evidence, persons being 
released from prison today are doing less well than their 
counterparts released a decade ago. The cost of criminal 
behavior, recidivism, are enormous. A total of $60 billion was 
spent on corrections alone in 2002.
    In many States, innovative reentry initiatives are under 
way. A key is that these strategies and initiatives must be 
developed in collaboration with community groups, service 
providers, citizens, victims, as well as formerly incarcerated 
persons.
    In July 2002 the Department of Corrections in Ohio 
published a comprehensive report entitled ``The Ohio Plan for 
Productive Offender reentry and Recidivism Reduction.'' The 
Ohio plan views reentry as a philosophy, not as a program. The 
plan calls for broad systems approach to managing offenders 
returning to the community.
    Under the Ohio plan, the process of planning for reentry 
begins immediately upon incarceration, not a few weeks, not a 
few months before release from imprisonment. This effort 
represents a holistic and seamless approach to transition from 
the prison community. Ensuring that offenders receive 
appropriate programming during confinement and while they are 
under supervision in the community is an important component of 
the reentry transition.
    During the last decade, the total numbers of parents in 
prison has increased sharply, from an estimated 452,000 in 1991 
to 721,000 in 1997, an increase of 60 percent. These prisoners 
are parents to millions of children, again as you heard earlier 
today.
    Policymakers need to pay more attention to how the 
experience of incarceration and reentry affect families and 
children.
    The Second Chance Act recognizes the importance of family 
involvement and reentry. The Ohio Department of Corrections has 
taken steps to engage offenders and family in reentry. In March 
2004 the Department hosted a conference focusing on prisoners 
as parents and the changes associated with reentry.
    Following the conference, I formed the Family Council, 
composed of appropriate stakeholders. The Second Chance Act 
recognizes the vital role that community-based organization and 
local community members should play in returning offenders home 
crime-free and drug-free. Communities and local citizens bring 
expertise, knowledge of resources, and often a willingness to 
assist offenders in making a successful transition back home.
    Three Ohio cities have recently been involved in a program 
called REIL, Reentry of Individuals and Enriching Lives. These 
events have all been well received. Mayor Jane Campbell in 
Cleveland probably has the most aggressive local government 
reentry initiative in our State.
    Finally, under the Ohio plan we have taken steps to engage 
the faith community through the formation of a faith-based 
council. Offenders released from prison experience a range of 
barriers affecting their prospects for a successful return 
home. Numerous laws have been passed restricting the kinds of 
jobs for which prisoners can be hired. Again, you have heard 
some testimony about this earlier.
    Jeremy Travis, president of the John Jay College of 
Criminal Justice in New York, called these ``invisible 
punishments'' by which he means the extension of formal 
criminal sanctions through the diminution of rights and 
responsibilities of citizenship. They may carry serious, 
adverse, and even unfair consequences for the individuals 
affected.
    Some offenders have the opportunity to live for a short 
time in a halfway house or similar transitional housing. The 
problem for many leaving prison or temporary housing continues 
because there are collateral sanctions that prevent access to 
public housing in many jurisdictions. Access to permanent and 
affordable housing for the released offender needs to be 
addressed.
    I am optimistic about the future of reentry. The commitment 
in the field of corrections remains strong and is growing. 
Several States, including Ohio, Michigan, and others have 
formed the equivalent of an interagency reentry steering 
committee to guide their work. In my State, I chair the newly 
formed State Agency Offender Reentry Agency Coalition.
    I also want to acknowledge the formation of the 
International Association of Reentry. Its mission is to foster 
victim and community safety through correctional reform and 
prison population management, cost containment, professional 
development, and the successful reintegration of offenders. The 
association is hosting its Inaugural Summit in Columbus, OH in 
March 2005.
    There is a pressing need for information to be shared and 
disseminated regarding where reentry best practices may be 
found. I strongly support the Second Chance Act's provision 
calling for a national offender reentry resource center. The 
Second Chance Act provides a sensible balance that recognizes 
reentry is about public safety. At the same time, it is about 
returning offenders home as taxpaying and productive citizens. 
I appreciate the opportunity to provide this testimony.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Wilkinson follows:]

    [GRAPHIC] [TIFF OMITTED] T0377.016
    
    [GRAPHIC] [TIFF OMITTED] T0377.017
    
    [GRAPHIC] [TIFF OMITTED] T0377.018
    
    [GRAPHIC] [TIFF OMITTED] T0377.019
    
    [GRAPHIC] [TIFF OMITTED] T0377.020
    
    [GRAPHIC] [TIFF OMITTED] T0377.021
    
    [GRAPHIC] [TIFF OMITTED] T0377.022
    
    [GRAPHIC] [TIFF OMITTED] T0377.023
    
    [GRAPHIC] [TIFF OMITTED] T0377.024
    
    [GRAPHIC] [TIFF OMITTED] T0377.025
    
    [GRAPHIC] [TIFF OMITTED] T0377.026
    
    Mr. Souder. We have been joined by our colleague from 
California, Congressman Diane Watson, and she has a statement 
she would like to make.
    Ms. Watson. Thank you so very much.
    Thank you, Mr. Chairman, for holding this hearing 
addressing issues that are very tragic not only to our Nation 
as a whole, but specifically disastrous and devastating to the 
African American community. At issue is the dubious trend 
amongst African American males in the United States, criminal 
justice system, to enter this system and be released with 
nowhere to turn for support.
    The tragic state of African American males and minority 
males in general is, in fact, perpetuated by a lack of funding 
and attention to our educational system and post-release 
programs for those that have been incarcerated. The goal is not 
to coddle criminals but to foster productive contributions to 
society.
    Our schools and our students are at war with themselves, 
while our communities constantly get the negative ripple effect 
of more people being in jail than in college. Researchers 
constantly wonder why violence in American society has reached 
pandemic levels. The answer is simple. We have forgotten about 
those who will 1 day be released from prison and will be in the 
same society we function in every day.
    Our most urgent need is a national resolve to confront and 
deal with the problems leading to violence before, during, and 
after incarceration. The key to preventing our stemming 
recidivism is to understand where and when it occurs, what 
causes it, and which strategies for prevention and intervention 
are most effective.
    All too often we fail to effectively listen to those people 
who are directly impacted by the justice system.
    Mr. Chairman, I can speak firsthand on the plague of crime 
caused in my congressional district and throughout the Nation. 
Support, legislatively and financially, should be given to 
pilot efforts that will help increase education and decrease 
recidivism.
    A man or woman when released from prison must have 
direction and opportunity because they will be part of the 
communities where most of us live. We must put greater focus on 
this issue and remember that we must leave no one behind or our 
Nation will fall.
    And I just want to add this piece. We have been doing a 
series of youth violence hearings in my district, because the 
last police officer in Los Angeles who was killed was killed by 
a young man coming out of prison and in a domestic violence 
situation. And the whole community turned out mourning for the 
death of this officer. So it comes home to all of us and 
certainly to those who represent the inner cities.
    And we must support the mission in our prisons for 
rehabilitation. And as they leave these incarceration 
provisions--or incarcerationsites, they must then have 
provisions that will help them get back in society in a more 
productive way.
    So in closing, the National Foundation for Women's 
Legislative Policy on Crime, Justice, Terrorism and Substance 
Abuse has also been looking at the issue for several years now, 
and I have a very important report issued through the NFWL last 
year that shows that unresolved drug addiction is a $95 billion 
a year problem. And NFWL also produced a second report 
analyzing one safe and cost-effective option for addressing the 
issue.
    I would like these reports entered into the hearing record, 
Mr. Chairman, and request that we conduct a future hearing 
looking at this issue again.
    And so I will submit them, without objection, to you.
    Mr. Souder. Thank you. At the very beginning of the 
hearing, I got unanimous consent that any Member who asked for 
inserts--so we will make sure that we put those documents into 
the record.
    If I can again make clear to each of the witnesses--which I 
should have said a little bit ago--you will see the lights in 
front of you. You basically have 5 minutes. When the yellow 
comes on there is 1 to go. Your full statement will be in the 
record. If there are additional materials you want to put in 
after you hear the discussion today, we would be happy to do 
that as well. We appreciate your patience.
    We have another panel after this one as well. But I very 
much appreciate also, I know Dr. Wilkinson, for example, moved 
his schedule around to accommodate today as opposed to 
tomorrow, and I am sure many others did as well.
    At this point we are now going to go to Lorna Hogan, 
Washington, DC.

                    STATEMENT OF LORNA HOGAN

    Ms. Hogan. Good afternoon, members of the community. It is 
my privilege to be here today.
    My name is Lorna Hogan. I am the mother of four children 
and at the age of 14, I began abusing marijuana and alcohol as 
a way of coping with being physically, mentally, and verbally 
abused.
    I was afraid to tell anyone what was going on and self-
medicating was the only way that I knew that could ease the 
pain. But after a while this combination was not working. I 
needed something stronger to help me cope with the abuse. I 
began using crack cocaine. This drug will take me to horrible 
places I would never imagine I would even go. The once clean 
police record I once had became stained with drug-related 
crimes I committed in order to support my habit.
    My children were definitely affected by my drug use. I 
wasn't a mother to them. My grandmother was raising them, and 
when she became ill, I began leaving them with other people. I 
just couldn't stop using. I tried 28-day treatment programs, 
but I was just detoxing. I was not getting help for the 
emotional pain I kept suppressed by using drugs.
    There were no services provided for me as a mother. There 
were no services for my children. There were no opportunities 
to heal as a family.
    In December 2000 I was arrested on a drug-related charge, 
and my children were placed with Child Protective Services. And 
when I went before the judge in criminal court for sentencing, 
I begged him for treatment. The judge refused my request. I 
felt hopeless. I not only lost my children, I lost myself. I 
didn't know where my children were or what was happening to 
them. I felt I would never see them again.
    In jail I received no treatment. I was surrounded by women 
like myself. We were all mothers who were all there in jail 
suffering from untreated addiction. But there were no treatment 
services in jail for us. When I was released, there were no 
referrals to after-care treatment programs. Instead, I was 
released to the street at 10 p.m., with $4 in my pocket. I 
still didn't know where my children were. I went back to doing 
the only thing I knew how to do, use drugs. I felt myself 
sinking back into a life of self-degradation.
    Months later, by the grace of God, I finally found someone 
to listen to me, a child welfare worker who was assigned to my 
case. I disclosed to her that I had been using drugs for 26 
years. I was referred to an 18-month family treatment program.
    The family treatment groups helped me to heal from domestic 
violence, helped me to understand that I was self-medicating to 
the problem instead of getting help for it. I had a therapist 
to help me address my childhood issues and my separation from 
my children. I had a primary counselor I could talk to at any 
time, and I still do. I also have parenting classes that gave 
me insight on being a mother.
    Today I am a graduate of the family treatment program. I 
have 4 years' clean time from drugs and alcohol. My case with 
Child Protective Services is closed. My children and I have 
been unified for 3 years. We live in our own home in Montgomery 
County. My children are succeeding academically in school, and 
I recently watched with pride and joy as my children performed 
in a concert at school where they all sang in English, 
Japanese, and French. We are a whole and strong and loving 
family today.
    I would like to conclude my story by sharing with you how 
critical it is for women to receive treatment while they are 
incarcerated. Most incarcerated mothers are nonviolent drug 
felons, and they are untreated drug addicts. Mothers behind 
bars receive little or no opportunity to heal from the disease 
of addiction. This lack of treatment and support services for 
mothers is apparent in every point of their involvement with 
the criminal justice system.
    Pretrial diversion, release services, court-sentence 
alternatives, and reentry programs for women offenders are 
restricted in number, size, and effectiveness. Mothers behind 
bars and mothers reentering the community need treatment. 
Mothers need comprehensive family treatment so that they may 
heal and break the cycle of addiction and the revolving door of 
the criminal justice system. If treatment is made available to 
mothers behind bars, to mothers returning to the community, so 
many families will have a real chance to heal from the disease 
of addiction. And, like my family, they will have a chance to 
heal and not be lost to the criminal justice system.
    Thank you.
    Mr. Souder. Thank you very much.
    [The prepared statement of Ms. Hogan follows:]

    [GRAPHIC] [TIFF OMITTED] T0377.027
    
    [GRAPHIC] [TIFF OMITTED] T0377.028
    
    [GRAPHIC] [TIFF OMITTED] T0377.029
    
    Mr. Souder. Our next witness was already kind of somewhat 
introduced by a colleague from Maryland. Mr. Felix Mata, 
Baltimore City's Ex-Offender Mayor's Initiative Office of 
Employment Development. Thank you for your patience today.

                    STATEMENT OF FELIX MATA

    Mr. Mata. Thank you.
    Good afternoon, Chairman Souder, Ranking Member Cummings, 
and all the other honorable members of the subcommittee. My 
name is Felix Mata and I manage Baltimore's Citywide Ex-
offender Initiative within Mayor Martin O'Malley's Office of 
Employment Development. I would like to thank you for the 
invitation to testify before you.
    As you may know, over the last 5 years, we have witnessed a 
surge in the public's interest to create new reentry 
initiatives in the United States. Already along the East Coast, 
there are several ex-offender initiatives occurring. Besides 
the city of Baltimore, New York, Philadelphia, Washington, DC, 
and Chicago are a few areas where task forces aimed at 
addressing this issue have started. However, the problem is not 
only an urban problem.
    In the Washington, DC, corridor, Prince George's County, 
Montgomery County, and Fairfax County have all started a 
reentry and/or gang task force to look at the problems of 
reentry or to prevent youth from entering the prison system.
    On the Federal level, a reentry Policy Council, a 
collaboration of the U.S. Department of Justice and Labor and 
Health and Human Services was created to further look at ways 
that addressed the issue of reintegration.
    With regards to the city of Baltimore, each year over 9,000 
individuals returned to the city from Maryland prison 
facilities, with over 1,000 returning from the Federal prison 
facilities. Close to 20,000 individuals are under mandatory 
supervision through the Division of Parole and Probation, and 
over 60,000 individuals filtered through the local detention 
center in Baltimore City. Our mayor, Martin O'Malley, and the 
Mayor's Office of Employment Development, facilitated the 
creation of the Baltimore City-wide Ex-offender Task Force in 
October 2002.
    With members representing more than 100 government 
agencies, nonprofit and community-based service providers, the 
task force worked in committees, including those addressing the 
needs and engagement of employers; a survey of existing 
services to support the needs of the population; the 
development of a model program to assist ex-offenders re-enter 
society; a review of relevant legislation; a focus on the 
involvement of the faith community in reentry; and, last, 
examination of transitional housing needs for ex-offenders.
    Based on the work of the committee, the task force found 
that the average ex-offender returning to Baltimore City is: 
one, African American; two, male, ages between 20 to 40, with 
an average age to 33; and has little more than a sixth grade 
education.
    A typical ex-inmate returning to the city of Baltimore 
receives no more than $40 upon release. With very little 
education and/or training, owes $8,000 in child support, has no 
transportation, no medication, has no place to stay and cannot 
find legitimate employment, but wants to turn his life around.
    A myriad of services must be made available for this 
population: housing assistance; physical and mental health aid; 
substance abuse treatment; child support modification support; 
access to identification; education and training; and 
employment opportunities.
    In March 2004, the mayor appointed the Baltimore Citywide 
Reentry and Reintegration Steering Committee to carry out 
selected recommendations of the task force. In the last 2 
years, we have seen some significant progress in reintegrating 
ex-offenders into Baltimore. One example is a collaborative 
project between the Mayor's Office of Employment Development 
and the Division of Parole and Probation, by placing one staff 
member to handle P&P's clientele have made a big difference. 
The result of this collaboration has linked over 1,200 ex-
offenders to services in the past year.
    Through the Harry and Jeanette Weinberg Foundation, funding 
has been brought in to create another position in the east side 
of Baltimore.
    Last, encouraging more employers to hire ex-offenders has 
been the aim of the three employer appreciation breakfasts 
sponsored by the steering committees. These breakfasts allow 
businesses in the community to recognize businesses that hire 
ex-offenders. Due to the tremendous success of this event, at 
our last breakfast on December 14, 2004, we had over 300 people 
in attendance, over 100 business representatives from over 36 
businesses. The event has even received sponsorship now, the 
Harry and Jeanette Weinberg Foundation.
    Even though the city of Baltimore has done a tremendous 
amount of work, we have a long way to go. The city is currently 
looking at a new and bolder approach of reentry by setting up a 
one-stop reentry center in northwest Baltimore. With the help 
of both State and Federal Government, Baltimore will be able to 
better assist the returning population.
    Once again, I want to thank you for this opportunity to 
testify, and I am happy to answer any questions that you may 
have.
    Thank you.
    Mr. Souder. Thank you very much for your testimony.
    [The prepared statement of Mr. Mata follows:]

    [GRAPHIC] [TIFF OMITTED] T0377.030
    
    [GRAPHIC] [TIFF OMITTED] T0377.031
    
    [GRAPHIC] [TIFF OMITTED] T0377.032
    
    Mr. Souder. Our next witness was also introduced earlier by 
Delegate Norton.
    Mr. Paul Quander is with the District of Columbia's Court 
Services and Offender Supervision Agency. He represents that 
agency.
    Thank you for coming today.

               STATEMENT OF PAUL A. QUANDER, JR.

    Mr. Quander. Thank you. Mr. Chairman and members of the 
committee, good afternoon. I appreciate the opportunity to 
appear before you today. I also want to thank the committee for 
scheduling this reentry hearing during Reentry Week here in the 
District of Columbia. 2005 marks the 4th consecutive year that 
the Court Services and Offender Supervision Agency [CSOSA] has 
collaborated with local faith institutions and the District of 
Columbia Government to present a full week of events 
highlighting the needs of returning offenders.
    Tomorrow night our third annual Citywide Reentry Assembly 
will be held at St. Luke's Center on East Capitol Street. We 
will gather to thank our volunteers and to hear directly from 
offenders who are receiving faith-based support. I invite all 
of you to join us for an informative and inspirational evening.
    I would also like to submit for the record a copy of the 
comprehensive reentry strategy for adults in the District of 
Columbia that was prepared in conjunction with the District of 
Columbia government and faith institutions and members of the 
community who are previously incarcerated individuals.
    I would like to share with the committee a few of the 
reentry strategies that we have in place. In 2001 we reached 
out to the city's clergy and began our Faith/Community 
Partnership. Our goal has been to connect returning offenders 
with institutions and individuals who can support them both 
during and after their term of supervision. Within our Faith/
Community Partnership, three lead institutions identify and 
broker mentoring and other services for returning offenders and 
their families. We currently have a network of 46 participating 
faith institutions, as well as approximately 200 volunteer 
mentors.
    While faith-based support does not replace CSOSA's 
treatment and education program, it supplements and augments 
our supervision community officers, commonly referred to as 
probation and parole officers, their capacity to provide after-
care and one-on-one interaction.
    In 2003 we recognized the need to link returning offenders 
with services well before they actually are released to the 
community. Using teleconferencing and video technology, we took 
the Faith/Community Partnership into Rivers Correctional 
Institution, a Bureau of Prisons contract facility that houses 
over 1,000 D.C. code offenders.
    Here in the District of Columbia we are unique in that 
every offender who is convicted of a crime in the District is 
sentenced to a Bureau of Prisons facility. And the Bureau tries 
to place these offenders within 500 miles, but oftentimes 
offenders are all apart in different facilities throughout the 
country. There are 1,000 individuals in Rivers, which is 
located in North Carolina.
    That outreach has developed into regular community 
resource-based video conferences at which representatives from 
the Faith/Community Partnership and a variety of District 
social service agencies provide information to men nearing 
release. Partnership with CSOSA has encouraged our lead faith 
institutions to expand the range of services they provide.
    For example, in response to the critical need for 
transitional housing, East of the River Clergy-Police-Community 
Partnership is converting a 14-unit apartment building into 
transitional housing for returning offenders. We cannot over-
estimate the importance of stable housing to successful 
reentry. About 25 percent of the release plans we investigate 
prior to an individual being released do not contain a stable 
housing placement.
    While we can often arrange for a short-term placement such 
as a public law placement in a halfway house, permanent 
solutions are much more difficult to achieve.
    According to the District of Columbia's Department of 
Public Housing and Community Development, a household income of 
$40,000 per year, or roughly $20 an hour, is necessary to rent 
a two-bedroom apartment at market rate in this community. 
Almost half of the District households report income below that 
threshold. These are the households most likely to be impacted 
by reentry, and the returning offenders compete directly with 
other workers in these households for a limited supply of 
viable jobs.
    Approximately half the offenders under supervision are 
unemployed at any given time. Unstable housing and precarious 
employment undermine the individuals' chances for success. To 
put it in the words of one of the offenders, ``To get a job you 
need an address, but to get an address you need a job.''
    We are working with District non-profits to identify 
additional housing resources. We are also addressing the public 
safety concerns that are integral to any discussion of offender 
housing.
    In 2004 we executed a memorandum of understanding with the 
District of Columbia Housing Authority to share information 
about offenders who are living in public housing similar to our 
successful partnership with the Metropolitan Police Department.
    For men and women with severe long-term substance abuse 
problems, intensive intervention has to begin at the moment of 
release. These offenders cannot negotiate reentry without 
intensive support.
    We have developed and implemented a program at our 
Assessment and Orientation Center that takes offenders directly 
upon release and puts them through 30 days of assessment, 
counseling, and treatment to prepare them for reentry. And for 
most, that means continued drug treatment as well.
    This program has had a positive effect on recidivism. For 
one cohort of the participants, arrest rates dropped 75 
percent. Based upon the Assessment and Orientation Center's 
proven success, we are expanding it into a Reentry and 
Expansion Center that will serve approximately 1,200 high-risk 
offenders and defendants each year. Our first two units are 
scheduled to open in November 2005.
    No matter how aggressively we supervise offenders in the 
community, we cannot guarantee their success. Too many 
variables influence reentry for the outcomes to rest solely on 
enforcement. According to the Urban Institute, family support, 
substance abuse treatment, and employment assistance are what 
returning offenders need the most. These essentials can only be 
provided through concerted, sustained collaborations in which 
all partners contribute to the true goal of reentry 
initiatives: the restoration of individuals, families, and our 
communities.
    I thank you again for the opportunity to participate in 
this hearing, and I will respond to questions at the 
appropriate time.
    Thank you.
    Mr. Souder. Thank you for your testimony.
    [The prepared statement of Mr. Quander follows:]

    [GRAPHIC] [TIFF OMITTED] T0377.033
    
    [GRAPHIC] [TIFF OMITTED] T0377.034
    
    [GRAPHIC] [TIFF OMITTED] T0377.035
    
    [GRAPHIC] [TIFF OMITTED] T0377.036
    
    [GRAPHIC] [TIFF OMITTED] T0377.037
    
    [GRAPHIC] [TIFF OMITTED] T0377.038
    
    Mr. Souder. Our next witnesses, Jim McNeil and David 
Russell, mentor and protege of the InnerChange Freedom 
Initiative.
    It is good to see you again. I heard you at the breakfast 
last fall with a lot of Senators and House Members. Thank you 
for coming for an official government hearing here to give your 
testimony today.
    Mr. McNeil.

                    STATEMENT OF JIM McNEIL

    Mr. McNeil. Mr. Chairman, members of the committee, my name 
is Jim McNeil, and I am from Richmond, a suburb of Houston, TX. 
I am retired and a volunteer worker in InnerChange Freedom 
Initiative Ministry, a branch of Prison Fellowship. I, along 
with my wife, moved from west Texas to the Houston area 5 years 
ago to be near our 5 children and watch our 11 grandchildren 
grow up.
    Shortly after moving, I was invited to a Church Missions 
Meeting and was introduced to the InnerChange Ministry. After a 
visit there, I signed on as a volunteer worker, counseling and 
setting up the substance abuse curriculum.
    For years I have been concerned about the prison population 
explosion and offenders going to prison at an early age and 
continuing to return. When they have reached their 40's, they 
see a life slipping by, and by this time don't know how to 
function in society.
    There are many good prison ministries. But I saw the 
InnerChange Ministry as one that worked with the offenders 
after release. During this timeframe, my wife and I started 
mentoring offenders who were enrolled in the ministry.
    To date, we have mentored 12 fellows; 2 have returned to 
prison, much to our disappointment, and 8 are out and doing 
well, and 2 have yet to be released. All of these fellows and 
their families are our extended families. They call us 
regularly, visit with us at our home, take care of us, consult 
us on living problems and family problems, and even help with 
chores at our home.
    Our home is their home, and our door is open to all of 
them. They continue to bless my wife and me and give us a lot 
of pleasure.
    Let me close in commending you on your task in prison 
reform. It must be addressed and dealt with. Rehabilitation has 
to be brought off the back burner. These people must be 
prepared to take their responsible places in our society and be 
productive citizens and positive family members.
    As a closing thought for you, more tax moneys are being 
spent in our State on prisons than on public education.
    Thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. McNeil follows:]

    [GRAPHIC] [TIFF OMITTED] T0377.039
    
    [GRAPHIC] [TIFF OMITTED] T0377.040
    
    Mr. Souder. Mr. Russell.

                   STATEMENT OF DAVID RUSSELL

    Mr. Russell. Mr. Chairman, members of the committee, my 
name is David Russell. I was born in Abilene, TX. I am a 
graduate of the InnerChange Freedom Initiative Ministry, and 
now a volunteer of IFI.
    I made a decision to transfer a few years after my second 
incarceration from west Texas to the Houston area, believing 
and trusting in God to provide a way for my transition into a 
new surrounding.
    Years into my second incarceration, I knew there had to be 
a better way of life. I just didn't know where to begin, to 
start it or even begin. But years had passed by. Things started 
becoming clearer to me that the only way was to let God's will 
for my life start to prevail.
    Not knowing much as to what was in store for me and this 
new way of life, of living, I started to see things a lot more 
clearly than before, but still not sure where God was taking 
me. I just started to trust and believe in God's word.
    Then it happened. A program was being put into effect in 
the Texas Department of Criminal Justice system called the 
InnerChange Freedom Initiative Program. It originated in the 
Houston area, but there were still many hurdles I had to 
overcome. It seemed as though I would never get there.
    Another year passed by since I heard of the program, and it 
happened. I was being transferred to another unit in the TDCJ 
system. Not knowing which unit I would be transferred to, I 
started wondering would I ever be able to get away from my 
past.
    A couple of days later I went for classification. I was 
told my next unit to where I would be assigned would be the 
Jester 2 Unit. The Jester 2 Unit, now the Carol S. Vance Unit, 
was where the InnerChange Freedom Initiative Program was now in 
process. I had gotten past another obstacle in my life, on my 
way to a new life.
    A year had gone by since transfer to the Jester 2 Unit. I 
was still not in the program as of yet. But then it happened. A 
couple of IFI members that I have been working with, and also 
built a friendship with, asked me if I wanted to become a 
member of the IFI program, and I said yes without any 
hesitation. So they took me to see the program director, the 
program manager, and I gave them my information.
    Weeks later I was accepted into the program, and God 
continued to move in my life. Doors began to open. My new way 
of life began to flourish. There I met my mentor, Jim McNeil. 
This was just one of many relationships that were built within 
the IFI program. Other relationships would also form that were 
still just as strong as my relationship with my mentor. Jim and 
Joyce are my extended family, and I love them dearly. I am 
blessed to have many Christian people in my life that will 
guide me and encourage me as I continue my growth with Christ 
Jesus.
    Let me close my saying that other offenders will benefit 
from the Prison Reform Act. The current rehabilitation process 
must be addressed and dealt with. Not rehabilitation but 
transformation. It has to be brought into the foreground of 
offenders' incarceration. Offenders must be prepared to take 
their responsible places in our society and be productive 
citizens and provide for a family member; not to be the problem 
of a society, but to be a part of the solution of the society.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Russell follows:]

    [GRAPHIC] [TIFF OMITTED] T0377.041
    
    [GRAPHIC] [TIFF OMITTED] T0377.042
    
    Mr. Souder. I thank you all for your testimony.
    Let me start first by thanking each of you for your work. 
And this is an incredibly difficult area, and I think for those 
in Congress and those listening to the testimony that it is 
very easy to raise false expectations about what we can do.
    Even Mr. McNeil, in intensive personal mentoring, has said 
that several people have gone back into prison; that I know 
many taxpayers look at these types of programs and say you are 
spending all of this money on it and yet the recidivism rate 
went up.
    But this is not easy. Partly we come, and hear people come, 
and they tell us their great results, and sometimes they are 
short term, and we don't necessarily have longitudinal studies 
because we look at the numbers and see it go up.
    But some people go back in within months. Some people go 
back 5 years later. And we have to develop a standard of 
measurement that's realistic here. We are not going to get 100 
percent by putting all of this money in. We are not going to 
get that kind of rate of return; and then second, even if 
somebody goes back in or they go in for a lower level of crime 
than they went in the first time.
    In other words, are we making some level of improvement? Is 
it going to be easier to do the rehabilitation? Is there some 
hope down the way here? Because if we hold up false hopes in 
front of Congress and say throw $112 million at this and 
recidivism goes up, we are going to have a huge problem.
    A second part of this as we look at this legislation is the 
numbers you are looking at far overwhelm anything the Federal 
Government is going to be able to do. I mean, you are talking 
thousands in each city, whereas this Federal initiative will 
only touch thousands nationwide. Yet hopefully we will be able 
to do that.
    So let me start with this question. Understanding that all 
the parts are important--housing, jobs, drug treatment, all 
these different parts--and understanding that in D.C. alone you 
have 2,000--we heard 9,000 in Los Angeles, the number has to be 
even higher--how would you best target these dollars, and how 
do you figure out who should be eligible for the limited funds 
you have? Should it be those who show the best opportunity to 
rehabilitate; those who are the hardest cases; those who are 
first in line? How are you going to allocate these funds and 
how would we best target what we are doing? If you would like 
to take that.
    Mr. Quander. I will start.
    As the director of CSOSA here in the District, we are also 
faced with limited options, resources. And so what we have 
decided to do, we have to tailor our approach and focus our 
resources where the greatest impact is going to be, and that's 
public safety and violent crime.
    We have to target individuals who have the greatest 
indicator that if you don't receive the treatment, they are 
going out and they are going to create havoc in our 
communities. And so that's why we have built this Reentry and 
Sanction Center so that we target the greatest group.
    Thirty percent of returning offenders who we have targeted 
we believe will cause the greatest amount of harm in our city. 
Now, if we can get those resources and if we can provide them 
with the services that they need, we think we will have the 
biggest impact on reducing crime and helping the city become 
safer.
    At the same time, we are reaching out to groups, churches 
in particular, because a lot of the churches in our community 
have faith-based organizations, have prison ministries, have 
clothing ministries, have housing ministries, and they need 
some assistance to help us do the work that we have.
    When we hook up with existing church programs, we already 
have a viable vehicle that is already out there, that has 
substance in the community, and so we try to match that, the 
community part of it and the government part, and it can work.
    We realize that the resources are limited. But if they are 
targeted in that way, we think that we will have the best 
chance for having the greatest impact on the citizens of the 
District of Columbia.
    Mr. Souder. I want to ask Mr. Mata a question with a 
followup to that. But, for example, InnerChange Ministries, 
it's self-selected. In other words, you have to choose to go 
into that section of the prison, because it's a faith-based 
ministry?
    Mr. Russell. Yes, you have to volunteer.
    Mr. Souder. And so that would be one way if it's a faith-
based question.
    We heard from Ms. Hogan about the mothers with children. 
Would that be another subtarget group because of the impact 
potentially on the children in the family, and how do you 
handle that, for example, in Baltimore?
    Mr. Mata. The city of Baltimore actually looks at what 
everyone is doing. One of the great things we do is see what 
the city of Chicago is doing. The Shay Foundation actually 
builds a triangle and says the top level group of ex-offenders 
returning into the community, they don't really need our help. 
They can come back. We have the bottom level of that triangle, 
our ex-offenders, who no matter how much you can try to help 
them, you can spend money and time on them. They are not going 
to want to change their lives around. But you have that middle 
tier who just need an extra push. They need to be put into a 
training program, they need to get transitional housing. Those 
are the groups that you can help.
    You can't expect an ex-offender who is coming out of prison 
to go through an 8 to 10-week training program to change their 
life around. It's going to take a number of kinds of different 
programs.
    I look at the Baltimore Reentry Partnership Program. It's 
an actual 2-year program with a 70 percent success rate, but 
they also provide transitional housing. The case manager meets 
the person at the prison door when they are released and says, 
all right, let's go get you signed up. We are going to get you 
your identification, get you food stamps, get you all these 
other services that you need right now.
    That's the type of dedication that it takes to get ex-
offenders involved and to help turn them around.
    Mr. Souder. Thank you.
    Mr. McNeil. Mr. Chairman, there are two things I would like 
to elaborate on.
    One is the mentoring program. David's and my relationship 
started 2 years before he got out of the penitentiary, and I 
think that is very important. Some people are mistaken that 
mentoring is picking up the guy when he gets out. If you don't 
know him when he gets out, he by nature is very suspicious of 
you.
    The second is, Congressman Davis, I want to echo what you 
were talking about in substance abuse. I am a recovering 
alcoholic, so maybe I am a little bit more sensitive to that. 
But the numbers run side by side.
    In the State of Texas because of budget restraints and the 
population explosion, TDCJ has cut back on their substance 
abuse programs within the penitentiary. That's a mistake.
    And so I am not versed on where your money should go, but 
these are just two of the issues that I think are very 
important. Thank you.
    Mr. Souder. Mr. Davis, if it's OK I will go to Ms. Norton 
next, because she didn't get questioning on the first panel.
    Mr. Davis of Illinois. OK.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I'm sorry I didn't get to hear everyone's testimony. I just 
want to congratulate those of you who have been involved in 
delivering these services and those of you who have had the 
benefit of them. Because to have the benefit of them is not 
enough; you have to have a great deal of personal inner 
strength to take advantage of those services.
    There's been a lot of emphasis, I think correctly, on 
services that join the community, such as mentoring services. 
The bill, Mr. Portman's, Mr. Davis' bill, shows us how at the 
beginning of this we all--when you talk about data collection 
is necessary, and how much of faith-based programs.
    I would like to hear more from Mr. Quander. He is from the 
Federal system. It has a more developed system than any of the 
States. And here I have been critical of the way we go at law 
enforcement in the Federal system. At the same time, I want to 
say that the Federal prison system and its after-services are 
the best in the United States.
    And I have some before and after, because Lorton, which is 
the city prison, was closed. The Federal Government took over, 
and it was night and day. Such an improvement. So there is the 
Federal system out there can be a real example for the States.
    Right after, Mr. Quander, right after the Federal 
Government became involved with felons from the District of 
Columbia, there was literally, almost immediately, within the 
first few months, an immediate effect on recidivism. So much so 
that I went around the District of Columbia with a chart, 
showing people, because we were trying to get halfway houses 
placed in places. I recognize that over time it may not have 
been as great as it was then, but obviously you were having an 
effect on recidivism.
    When we had a hearing, when Mr. Davis had a hearing here, 
we tried to learn more about what was happening. What impressed 
us was not at that point the community services. The community 
was still trying to get them to understand these were their 
children, their numbers, residents of the District of Columbia. 
They hadn't been dropped in from outer space. What impressed us 
was the services that CSOSA offered. The chairman could not be 
more correct: We are going to have to target whatever we are 
talking about.
    I notice that in the testimony here from Reginald 
Wilkinson, he says that President Bush in his 2004 State of the 
Union urged Congress to allocate $300 million over 4 years to 
support reentry transition services. He named several kinds of 
services that he indicated the President had named: job 
training, placement services, transitional housing, community 
faith-based services. Some of that is very expensive.
    Let me ask you about the services that I think have made a 
difference in the District of Columbia, which I think could be 
less expensive, and hear your response.
    One was anger management services. These are very angry 
people. That's how they got there in the first place in some 
sense, and when they see how society views them, including 
their own neighbors, that builds up.
    The other was inpatient and outpatient drug treatment, so 
much so that you have some facilities here.
    And then, as I recall, there was a step, everybody got 
tested. So that if, in fact, you get tested dirty, you are one 
step back to prison. I wish you would describe those services, 
see if they are available, and the effect they have had.
    Because a lot of your testimony, Mr. Quander, was about 
things like community services, faith-based and the other 
services we are all for, but very frankly, I don't think that's 
what the difference is in the District of Columbia so far if we 
are talking about the difference in recidivism rates.
    I would just like you to lay out for us what--at least 
these--I am not even into transitional housing. I mean, you may 
have to bunk up with somebody for a long time. I am into what 
it takes to get through every day without punching somebody in 
the nose, maybe even your parole officer, and going back to 
jail, because you are still on drugs, because you are not being 
tested, because there are no incentives to stay out and stay 
clean.
    Mr. Quander. One of the first things that we were able to 
accomplish with the help of this Congress was we were able to 
reduce the caseloads of the men and women who supervise 
offenders.
    When we first started this agency, the average caseload was 
well over 100. Today, for our general service units, it's less 
than 50 to 1. Some of our specialized units, the sex offender 
unit, the domestic violator unit, even traffic is down to 25 or 
30 to 1. So it allows our men and women who have the training 
and dedication to work with the men and women who are under 
supervision, to provide services and to keep them focused and 
accountable.
    As far as anger management is concerned, we offer anger 
management because people need to understand how to deal with 
the day-to-day frustrations. Many of us have parents and 
guardians and coaches that helped and taught us how to work and 
to navigate and negotiate.
    Many of the men and women that we see have never had 
anyone. And so after a period of incarceration, after going 
through the court services, people are angry, they are 
frustrated, and they are easily dissuaded. So we try to build 
in anger management and coping skills.
    As far as substance abuse, we drug test. Everyone that 
comes into the door has to drug test, and we have graduated 
sanctions because we want to work with individuals. But our 
offenders know that if you test positive there will be 
immediate sanctions.
    We don't have to go back to court. We don't have to go back 
to the parole authorities. We have the authority to sanction 
individuals. And those sanctions can be anywhere from going to 
AA meetings to actually being under house arrest or actually 
having a bracelet placed upon you for global positioning 
satellite monitoring so we know what you are doing 24 hours, 7 
days a week.
    It is important that there is----
    Ms. Norton. Now, if you continue to offend, are the next 
steps back so that people know that they could end up back in 
jail?
    Mr. Quander. It's clear that if you continue to offend, 
that's exactly where you are going. But we want to give people 
the opportunity.
    We have to be clear as to what the expectations are; that 
if you reoffend, that if you have these technical violations, 
you will definitely go back. Our mission is to try to get them 
to turn their lives around, know what they are facing is to 
correct that path so that we can keep them here in our 
community.
    Ms. Norton. It is a real carrot-stick.
    Mr. Quander. It is but a major component is the substance 
abuse treatment. If you don't give individuals time away from 
this environment, it's sort of a like a man on a diet who lives 
right above the Burger King Restaurant. He smells the hamburger 
cooking, the food day in and day out, but our community is even 
more pervasive than that.
    The person doesn't have to smell it upstairs, the drugs are 
right in the house. Grandmother has the drugs, sister has the 
drugs. When you walk out on the street, all your partners and 
friends have the drugs. They are all enticing you. They are all 
saying come on, come back.
    And so we need money and resources so that we can get 
people out of that environment, get them away, get them where 
people who have gone through this type of process say, hey, I 
have made it.
    It takes time, it takes effort, it takes money. On average, 
it cost us $14,000 per individual that we put through 
treatment. Three phases--detox, inpatient, and that outpatient 
component is just so critical.
    That's where that faith-based component also comes in, 
because you need a mentor sometimes. You need someone that has 
gone through that process to walk with you. When you are 
feeling low and when you have that temptation and your partners 
are calling you, you need someone on the pro-social side that 
you can pick up the phone and you can look at for support. 
That's where we start to make the change.
    So my agency has been successful, but a lot of that has to 
do with the good graces that this committee and others have 
given us the resources to dig in to find out what it is that we 
actually need to do, and the men and women who work with the 
offenders day in and day out in some of that community support, 
some of which is represented here in the audience today.
    Ms. Norton. Thank you very much.
    I just want to say, Mr. Chairman, the notion of--I think 
the chairman has been clear, you know; no one is going to throw 
some money out of there in front of you. Frankly, I don't think 
they should.
    I would look at CSOSA and what has worked there. It can't 
be done on the cheap. We didn't do it on the cheap when we put 
them in jail for $30,000 a year, bringing them out here in the 
same condition. And therefore we've got to decide if you have a 
limited amount of dollars, where to use them. And these record 
numbers are in prison because of drugs, then it does seem to me 
to make sense to somehow extricate that one part of the 
problem, because it is such a large part of the problem.
    I just want to say, finally, to Ms. Hogan, I am very 
impressed to read your testimony and to hear your testimony, 
because you are the story of virtually every woman in prison. 
And here was a woman who was saying get me off these drugs and 
I will be all right. She went to prison and could not--she 
couldn't get them beforehand. And we are getting to the point 
where it is easier to get them after you come out than 
beforehand. She couldn't get any effective drug treatment 
beforehand. The last place apparently you can get it at least 
is in State prisons, and then she was on her way back out until 
she found somebody who would help her after she got out of 
prison.
    So I just want to thank all of you for what you are doing.
    And I do think, Mr. Quander, that you could be helpful to 
the States, because it's really a State problem. Most people 
are in State prison. If somehow what has happened here, which 
is kind of a microcosm that is normally not available to 
localities, should be shared so that they would have some sense 
where to put their own limited dollars while we are trying to 
get more dollars here, and I think that your experience is very 
useful to us all.
    And I am very grateful for what the Federal Government, the 
Federal prison system and the Federal dollars that fund CSOSA 
have done for the returning of felons in the District of 
Columbia.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you.
    Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Let me thank each one of the witnesses for their testimony.
    Listening to all of the things that we continued to hear, 
my question really goes to Mr. Russell and to Ms. Hogan. Could 
you project what your life might be like if you had not come 
into contact with some help? I am saying we often look at the 
statistic that 67 percent of the individuals would probably 
reoffend within the 3-year period if they didn't find some kind 
of help.
    So would you just project what you think your life might be 
like if you had not come in contact with some help?
    Ms. Hogan. Yes. I could basically say that if I hadn't 
gotten the help from a social worker, that, you know, my 
children were in Child Protective Services, I can predict 
pretty much if I had kept using and going in and out of jail 
that my children would be gone. And because addiction is a 
disease, once--you know, if it's left untreated, you get fatal 
results.
    So I don't think I would be here today if I was still using 
and going in and out of jail. And I am thankful that I had 
someone that took interest in me to help me.
    Mr. Davis of Illinois. Thank you.
    Mr. Russell.
    Mr. Russell. I can honestly say that I wouldn't be sitting 
here today either if it weren't for the InnerChange Freedom 
Initiative Ministry. You have volunteers coming in and sharing 
their lives with you, and not knowing you from Adam, and giving 
you an opportunity to open yourself up to them, knowing that 
they care about you.
    You have someone walking beside you and not looking down on 
you. You have someone giving you the tools and the instructions 
so that you could have a structured life as well.
    Being with Jim has been a blessing to me, because if he 
wouldn't have been around, I would have gone back to the same 
old ways. I would have been back to the old same community I 
came out of. But having an opportunity to move out of that 
community into a new community, into a new environment, opened 
my eyes to where now I want to help, I want to give back.
    So, having those volunteers there, having the mentors 
there, having the program in place has opened my eyes a lot 
more clearly than they had been before--not changed, not 
rehabilitated me, but transforming me from that old man to the 
new man.
    Mr. Davis of Illinois. Mr. Mata, Mr. Quander, both of you 
are professionals in the field, in the business. As you do the 
work that you do on a regular basis, what do you think can 
really put the seal on and become a real breakthrough?
    We know that there are many individual programs throughout 
the country, but they are oftentimes so meager, so minor, so 
small, and we are missing so many people who never come into 
contact with the program, who never get touched.
    What becomes a real breakthrough for this problem across 
the Nation?
    Mr. Quander. I will try to respond this way. I think you 
actually need a movement, you need a concerted effort whereby 
the focus of reentry and prisoners actually takes on the 
character of the movement so that everyone is aware of the 
issues and everyone is focused on what some of the solutions 
are.
    Some of the solutions are pretty straightforward. We 
mentioned drug treatment, we have mentioned housing, we have 
mentioned employment. There are certain areas in which certain 
programs are very successful. We need to concentrate on those 
areas. I think if we concentrate on those areas, we can produce 
the results, and once we produce the results, you can't argue 
with the numbers. I think that is where we need to go and that 
is where we need to concentrate.
    For offenders in the District of Columbia, housing is such 
a big issue. They will tell you, I can't concentrate on my 
substance abuse issues if I don't have a place to live. I want 
to get back with my family. I want to go to the PTA meetings, 
but I need to establish myself as a man and provide for my 
family, and I am going to do it either by hustling or I am 
going to do it the correct way.
    So those are those real issues that we really need to focus 
on. Some of the faith-based partners that we have done it with, 
they have apartment buildings, and they are willing to convert 
those and are doing that right now. We need to support those 
efforts, because they have already taken the lead. We need to 
support it.
    Mr. Davis of Illinois. Mr. Mata.
    Mr. Mata. Mr. Davis, I agree with what Mr. Quander just 
said, but I also want to make a differentiation between the 
city and the State. I actually have two positions. I work for 
the city of Baltimore, but I also work for the State of 
Maryland as the executive director for the Governor's Advisory 
Council on Offender Employment.
    The city and the State are two very different monsters. The 
city is sort of an urban island, and then you have the State of 
Maryland, which is western, eastern, southern Maryland that 
thinks very differently from what the city of Baltimore does. 
So it does take a movement in order to make these changes 
happen.
    There are some great things coming out of the Federal 
Government that we could use in the State, but our State 
representatives sometimes vote against things that can help 
reentry in the State of Maryland.
    The movement has started in Maryland. Like I said, 
Montgomery County, Prince George's County, they have both 
started reentry activities there. If you look at a county such 
as Montgomery County, which is a very wealthy county in the 
State of Maryland, they actually are having some problems with 
reentry because when they connect their inmates to employment 
after they are released, they may get a job offer from that 
business, but then all of a sudden they don't show up to the 
job anymore because after release the Division of Corrections 
no longer has ahold of them, they can no longer assist them in 
making that proper transition. So they are back out into the 
free world, but they don't have the cognitive restructuring or 
the mental capacity to deal with everyday living like you and I 
do.
    This is something else that needs to be brought in and 
taught to these inmates and ex-offenders, and programs such as 
CSOSA, programs like the REP program in Baltimore City, these 
programs are doing great jobs in assisting these ex-offenders 
in returning into the community.
    Mr. Davis of Illinois. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Souder. What Mr. Mata just said is not widely talked 
about, yet is a huge problem of the longer term followup if you 
haven't had a substantive change. Because often as I have dealt 
with the businessmen who are first willing to hire many of the 
people going back into the community, they are themselves the 
most outspoken leaders in the community trying to get other 
business leaders to do that. And then if it doesn't work and 
they are running a business that runs on a profit, and if the 
people don't show up, they give up and it affects the entire 
business community.
    We have a stake in making these programs go, to make sure 
that there is some kind of followup in that employment, for 
literally it isn't that it just fails in one case, it spreads 
to the employers, to other employers, and by word of mouth just 
goes through the business community that this is too high a 
risk, because you are already taking some risk in the 
situation.
    Before moving to the next panel, I wanted to raise one 
other question that challenged me years ago, and I know it is 
going to come up in the course of this debate.
    Years ago, when I was a staffer for the House, a man named 
Bob Woodson told me, when I went to talk to him, he said, 
``Don't be a typical White guy who sits on your duff and 
pronounces what is wrong with the urban centers. Go out and 
meet some people.''
    So I said, ``OK, introduce me to some.'' One of the men I 
met was V.G. Ginnis, who over 20 years ago was working with 
gang problems with the Bloods and the Crips in the city of Los 
Angeles. We had done a number of antigang initiatives to 
provide job training, housing assistance, counseling, drug 
treatment to people and gangs. And he said, ``Here is the 
problem with some of what you do.'' Guess what that program 
did? More kids joined gangs because they couldn't get job 
training, drug treatment, housing assistance if they didn't 
belong to the gang, so gang membership went up.
    When these services don't exist in the community for people 
who are following the law, how do we best make the argument--
other than a pure cost question here, which you can, but it 
doesn't get into the equity question--how do we make this 
argument to sell a bill like this, when there is a shortage of 
services across the board?
    Mr. Mata. If I could just answer that, Mr. Chairman, with 
the reentry center that we are trying to start in Baltimore, 
that is actually one of the issues that we are looking at, 
because if we put it in the northwest corridor, we are actually 
replacing a center that assists all the population in that 
northwest area of Baltimore City. But what we are looking at is 
that it will be open to all Baltimore City residents, but with 
specialists who focus on ex-offender issues.
    The reason why you need that there is because those 
specialists, they have the contacts who know what works 
specifically for ex-offenders.
    Going back to the business aspect, you don't only want to 
put an ex-offender into a job, you want to put them into a 
career pathway, and you want to do that for any resident. 
Because the older you get or the more experienced you get, you 
want to move up the career ladder, you want to be a better 
taxpaying citizen and you want to help others do the same 
thing. Those specialists that would be at that center would be 
able to do that and better assist that population.
    Mr. McNeil. Mr. Chairman, I would like to share something 
with you. In Texas, after an offender has been out 2 years and 
he can get permission from his parole officer, from the unit, 
they can come back to that unit and be a volunteer in services.
    David has just gone through the Texas Department of 
Corrections, or TDCJ, security and safety training, and he is 
becoming a mentor himself. We have several of our fellows who 
are back in mentoring, and we find that they are the best 
mentors. But we also find that it is real good for them. You 
can't keep it if you don't give it away.
    They really can work with the guys with their problems. 
They understand them, they have been there. And we have fellows 
that are really wanting to come back and work as volunteers.
    Thank you.
    Mr. Souder. Mr. Quander.
    Mr. Quander. Sometimes I believe we just have to take small 
steps. For certain individuals that are returning from periods 
of incarceration, they have never held any type of job. So the 
first step sometimes is just getting into a job, learning those 
soft skills: How do you work with others? How do you resolve 
disputes? How do you talk to people? It may not be a career 
that a person is looking for, but it is a start.
    There are jobs out here in our communities that we can get 
people started. Sometimes, you know, a long journey begins with 
that first step. So sometimes the first job, the first positive 
experience that we can provide to men and women who are 
returning can help them, along with other support, to make the 
next steps in their lives.
    So a job is a job when you have that support, and it can be 
more than just that first job, it can be the first step. That 
is the approach we have to take, because I know across the 
country, there are limitations. But for individuals who are 
just returning from prison that first step can be so important 
and meaningful.
    Mr. Souder. I thank you each for your testimony. If you 
want to submit anything else into the record, if you hear 
anything on the third panel or you have additional thoughts, 
please get it to us in the next 5 legislative days, and thank 
you for your patience.
    If the third panel could now come forward: Pat Nolan, 
Joseph Williams, Chaplain Robert Toney, Frederick Davie and 
George Williams.
    If you could each remain standing, I need to swear you in.
    [Witnesses sworn.]
    Mr. Souder. Let the record show each of the witnesses 
responded in the affirmative.
    The first witness on this panel--and thank you very much 
for your patience; it has been a long afternoon--is Pat Nolan 
from Prison Fellowship, from Justice Fellowship. Pat and I have 
known each other longer than we want to admit. It is great to 
see you here today, and thank you for your leadership in this 
area.

 STATEMENTS OF PAT NOLAN, PRISON FELLOWSHIP; JOSEPH WILLIAMS, 
TRANSITION OF PRISONERS; CHAPLAIN ROBERT TONEY, ANGOLA PRISON, 
LOUISIANA; FREDERICK A. DAVIE, SENIOR VICE PRESIDENT OF PUBLIC 
  POLICY, PUBLIC/PRIVATE VENTURES; AND GEORGE A.H. WILLIAMS, 
          TREATMENT ALTERNATIVES FOR SAFE COMMUNITIES

                     STATEMENT OF PAT NOLAN

    Mr. Nolan. Well, thank you, Mr. Chairman, and distinguished 
Members. It really is an honor to be here with you and discuss 
with you this very important issue of public safety.
    We are working to prepare prisoners to return to their 
community, and we want them to do it safely and successfully so 
they can become productive, law-abiding, contributing members 
of the community.
    Mr. Chairman, as you noted, I am the president of Justice 
Fellowship, which is the criminal justice reform arm of Prison 
Fellowship Ministries. Prison Fellowship for three decades now 
has worked to change prisoners' lives by taking the gospel into 
prisons; and part of that is, we can't take the gospel into 
prisons if we also don't care about the circumstances in which 
they live and to which they return and the circumstances that 
got them there. So we work at dealing with the prisoner in all 
of those circumstances from a biblical basis.
    Scientific studies have shown that inmates who participate 
in just 10 or more of our Bible studies are two-thirds less 
likely to recidivate. And that is significant because, for many 
of us, Joe and others, who have been incarcerated--I knocked 
off 10 Bible studies in about 2 weeks. For those who are 
interested, there are plenty of opportunities to do it. So just 
10 or more having that impact is very significant.
    I wrote a book, ``When Prisoners Return,'' to call the 
church to become involved in preparing prisoners for their 
return and then helping them after they return. It is based on 
our experience as a ministry and my own personal experiences.
    I bring a unique background to the ministry. I was for 15 
years a member of the California State Assembly. I was 
Republican leader of the Assembly for 4 of those years. I was a 
leader on crime issues.
    I was one of the original sponsors of the Victims' Bill of 
Rights, Proposition 15. I was the author of the Death Penalty 
Restoration Act and author of tough-on-crime measures, 
including mandatory minimum sentences.
    I pushed for the expansion of California's prison system as 
the floor leader at a time when we built nine new prisons and 
not one new university.
    Then I was targeted for prosecution over a campaign 
contribution that turned out to be part of an FBI sting 
operation. I pleaded guilty to one count of racketeering and 
went to prison for 25 months and spent another 4 months in a 
halfway house.
    I had a chance to see the impact of the policies that I had 
so ardently advocated played out, and I saw how our system is 
failing us. I saw that the prisons were not making the 
community safer, that the atmosphere inside a prison was not 
conducive toward reformation of character, and in fact the 
skills you learn to survive inside prison make you antisocial 
when you get out.
    And while in good faith I had supported all those policies, 
in fact they weren't keeping the public safer; they were making 
the public more dangerous. Even low-risk or nonviolent 
offenders that go to prison are more likely to commit offenses 
when they get out. The RAND Corp. studies have shown that.
    While I was in prison, I had plenty of time to think about 
why that was, why those policies that I had strongly supported 
weren't working. My testimony today reflects the conclusions 
that I came to and that we have learned from our experience in 
trying to minister to people.
    First, let me tell you what it is like to be released from 
prison. The moment you get off the bus, you are faced with 
several critical decisions immediately: Where will you live? 
Where are you going to find your next meal? Where will you look 
for a job? How do you get to the job interview? How do you get 
to where you hope to live? How can you earn enough money to 
support yourself?
    There are a million business details: How do you open a 
bank account? How do you get an I.D. card? Most people are 
released from prison without even identification, and these 
days, after September 11, you can't get a hotel room, you can't 
get on a train, you can't get on a plane, without I.D. What are 
you going to do?
    How do you make medical appointments? Inside prison you are 
exposed to staph infections, hepatitis C, tuberculosis, HIV/
AIDS. How do you get a medical appointment? And how do you have 
a doctor treat you when you don't have any of your records with 
you?
    These things put a lot of stress on an inmate coming out. 
And the problem is, the pressure of these decisions hits you at 
a point when you have been stripped for years of any control 
over any aspect of your life. You are desensitized to making 
decisions.
    I will give you a perfect example. When I came out, a bunch 
of my friends--it was the first day at the halfway house. A 
bunch of my friends took me to lunch at the 8th Street Deli, 
right near the Capitol. We all sat there. The waiter came and 
they went around and ordered. And I sat there and stared at the 
menu. And I looked at it--you know, on a deli menu there are 
hundreds of choices. I stared and was paralyzed; I couldn't 
make a choice. For 2 years I hadn't ordered anything for 
myself. I hadn't decided what to eat. And here I was.
    Finally, in embarrassment, I just ordered where my eyes 
hit, but I didn't want it. I was just too embarrassed. I just 
wanted to get that moment over with.
    I come from a good background. I had a great education. I 
was an attorney. I was a member of the legislature. If, after 
just 2 years of incarceration, I couldn't order something from 
a menu, think of a person that didn't have any of those 
advantages going into prison, and they confront where to live, 
where to sleep, how to get a job, what to do with their time. 
It is a significant problem.
    The first thing I want to say to you, mentors make all the 
difference in the world. It is not programs that are as 
important as relationships. Programs are important, but only if 
they facilitate a relationship, or the real live human being 
that loves you.
    By the very statement of being a mentor, it is an act of 
love. Just being there for the inmates is a powerful statement. 
That somebody like Jim McNeil would come every week and visit 
David Russell in prison and then walk through the gate with him 
and help him, to be there as he confronted all those decisions, 
is an act of love. Government programs can't love people, only 
people can.
    The second thing I want to say is where are those loving 
people going to come from? Ninety-five-plus percent of them 
come from churches. We can use euphemistic terms such as 
``community-based,'' but it is churches that provide these 
people. Willie Sutton was asked, ``Why do you rob banks?'' He 
said, ``That is where the money is.''
    If we are interested in finding loving people to start 
these relationships with inmates, it is the churches where they 
are going to come from, and that is just the reality. We can 
play all around that, but going and speaking to a Kiwanis Club, 
you are not going to have nearly the impact as you do going to 
a church, saying, ``Will you come and join us in walking with 
these men and women and helping prepare them for their return 
and then walk through the gate with them as they make those 
decisions?''
    The church is also a healthy atmosphere. John Dilulio made 
a very interesting observation: ``The last two institutions to 
leave the inner-city are liquor stores and the churches.'' 
Think of the clusters of ill health, of pathology, around 
liquor stores, the gambling, the vice, the drugs, versus the 
clusters of health, healthy lives, around churches.
    We want the people coming out of prisons to be healthy, not 
just physically--mentally, morally--healthy, good people. 
Churches are the place. If they are going to hang, if they are 
going to spend time, the church is a lot healthier place for 
them to hang out than the liquor store. So we need to 
facilitate that. We need to encourage that.
    But it is uncomfortable coming out of prison. You are not 
sure if anybody will welcome you. The mentor helps them. They 
introduce them to the church, they hopefully will have told 
them ahead of time, this inmate is coming out that they have 
that relationship with, introduce them to the church and get 
them involved in healthy activities.
    Not just Bible studies and worship services, but also just 
helping around the church. Our parents told us that idle hands 
are the devil's playground. There is plenty of idle time when 
you get out of prison. You go from a period of control to a 
period of total freedom with your time. It is better to channel 
that to where healthy, loving people are in the churches.
    The last point I will make is that the government has to 
treat the faith community as a partner. Too many government 
agencies treat it as an auxiliary that it is a cheap way to do 
what we don't have enough money to do. That is wrong, because 
it misses the power that the church has.
    The church provides something that government never can, 
and that is not only that love, but it is also that moral 
outlook and direction. We don't want the government preaching 
and giving moral direction. But crime at its root is a moral 
problem. Bad moral choices were made. The decision was made to 
harm somebody else. And we need to reform that attitude, that 
world view, that helps get that person thinking right, thinking 
in terms of living a good, healthy, productive life. The only 
way that comes is from a world view.
    We don't have enough cops in the world to stop people from 
doing something bad that pops in their head. There has to be 
self-restraint, and it is the church that can teach that self-
restraint, and the loving mentor that can help model that 
behavior and help them when they stumble and make mistakes to 
get back on their feet.
    The last thing I will say is that Dr. Martin Luther King 
said, ``To change someone, you must first love them, and they 
must know that you love them.'' It is the faith-based community 
that reaches out in love to people society would rather forget 
and says, ``We love
you, we will walk with you, we are here to help you get back on 
your feet.''
    Thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Nolan follows:]

    [GRAPHIC] [TIFF OMITTED] T0377.043
    
    [GRAPHIC] [TIFF OMITTED] T0377.044
    
    [GRAPHIC] [TIFF OMITTED] T0377.045
    
    [GRAPHIC] [TIFF OMITTED] T0377.046
    
    [GRAPHIC] [TIFF OMITTED] T0377.047
    
    [GRAPHIC] [TIFF OMITTED] T0377.048
    
    [GRAPHIC] [TIFF OMITTED] T0377.049
    
    Mr. Souder. Our next witness is Mr. Joseph Williams, 
Transition of Prisoners.

                  STATEMENT OF JOSEPH WILLIAMS

    Mr. Joseph Williams. Thank you, and good evening.
    First, let me start by saying what an honor it is for me to 
be able to testify before this committee on an issue that is 
very near and dear to my heart, prison aftercare and prison 
reentry and the reduction of prison recidivism.
    If we are going to have a significant impact on this whole 
problem of prisoner recidivism, I think it is very important 
for us to first understand the types of people who populate our 
prisons, and if you would allow me to read just a few prisoner 
demographics.
    First of all, 50 percent were raised by a single parent, 
usually the mother; 15 percent were raised by neither parent, 
but were raised by another relative or in a foster care home or 
in an institution; 25 percent were raised by a parent or a 
guardian who was a substance abuser; 15 percent of male inmates 
and 55 percent of female inmates were physically or sexually 
abused as children, and the numbers are even higher for those 
raised in foster care homes or institutions--44 percent for men 
and 87 percent for women; 95 percent of the men had no loving 
father figure in their life.
    As far as educational achievement is concerned, 40 percent 
did not have a high school diploma or its equivalent; 40 to 65 
percent are functionally illiterate, meaning they lack the 
skills necessary to read and understand a newspaper, balance a 
checkbook or fill out an application for a job--on the average, 
they read at a 7th grade level; 25 to 50 percent have symptoms 
of a learning disability; on the average, their IQ score is 14 
points below the national average, and about 15 percent score 
low enough on an IQ test to be identified as mentally retarded.
    As far as substance abuse is concerned, alcohol and other 
drugs are implicated in the offenses of about 80 percent of 
inmates. Drug offenses account for 20 to 60 percent of inmates; 
60 to 80 percent have used drugs at some point in their lives; 
70 to 85 percent of inmates need some level of drug treatment, 
but only 13 percent receive treatment while in prison.
    Then there are the effects of prison after a person ends up 
in the prison for a number of years. They have a prison 
mentality: Don't talk, don't trust, don't feel. They are 
indecisive, distrustful, afraid of life beyond the walls. They 
are out of touch--out of touch with family, out of touch with 
society in general, and out of touch with the requirements of 
today's workplace.
    I think when we look at the characteristics of these 
individuals who are in prison and are being released into the 
community, we can see that this is not going to be a quick-fix 
solution, that in order to have a significant impact on the 
problem of prison recidivism, comprehensive and relatively 
long-term measures are going to be required.
    I can say that, like Pat, I feel that I am uniquely 
qualified to speak to this issue. First of all, I am a former 
inmate. I am a former career criminal and former drug addict. 
For 13 years, between the ages of 15 and 28, I lived as a drug 
addict and a drug dealer.
    When I was 28 years old, God miraculously delivered me from 
heroin addiction and from a life of crime, and within a year 
after my deliverance and my transition from a life of crime to 
a life of being productive in the community, I began to go back 
into the jails and the prisons and help others who were in the 
same situation that God had brought me out of. But I was not 
involved in jail and prison ministry very long before I 
realized that most of the people that I was ministering to in 
the jails and the prison, once they were released from prison, 
were back in prison within a short period of time.
    For 23 years now, I have worked in some form of ministry to 
prisoners, ex-prisoners and their families.
    I was also blessed to be able to go back to school, and I 
received a bachelor's degree in religious education with a 
double major in urban studies and Bible; and I was also able to 
attend Wayne State and to achieve a master of arts degree in 
applied sociology.
    While I was at Wayne State, I discovered the theory of 
social integration. Basically what the theory of social 
integration says is that those who have strong attachments to 
positive social institutions, such as the church, family and 
work, are far less likely to engage in antisocial behaviors.
    I was employed by Prison Fellowship in 1992 and started the 
Detroit Transition of Prisoners program in 1993. We used the 
theory of social integration as a basis for our program model. 
The way that we achieve social integration is through the 
churches. We have about 80 churches working with us in Detroit, 
and they provide 120 mentors who work with men and women who 
transition from prison back into the community.
    It has been referenced today during these hearings, but I 
want to put more emphasis on it, that most of those, like I 
was--those people who were in prison and coming out of prison--
have strong attachments to antisocial networks, and in order 
for them to be successful, then we have to facilitate their 
integration into pro-social networks.
    A person can go through the finest program. We know that 
drug treatment and housing and job placement and education and 
all of those things are very much needed. But unless we are 
able to facilitate their connection to pro-social support 
networks, they are very likely to go back to old friends and 
associates, as Mr. Cummings alluded to; and it is only a matter 
of time before they end up back using drugs, back committing 
crime and back in prison.
    We have collected quite a bit of data on our program since 
the time that we started. We have been in existence now for 
about 12 years. Our program evaluator is Leon Wilson, who is 
the Chair of Sociology and Criminal Justice at Wayne State 
University, and he conducted a study in 2000. He found that 
only 18 percent of those who graduated from a TOP program had 
any further contact with the criminal justice system within 3 
years, and of that 18 percent, only one person went back to 
prison for the commission of a new crime.
    I want to say that I wholeheartedly support the idea of 
faith-based and community-based organizations working hand in 
hand with the government to impact this problem, and our data 
and my experience suggest that when we in the church and in the 
community work hand in hand with the government, we can have a 
significant impact on the problem of recidivism.
    Thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Joseph Williams follows:]

    [GRAPHIC] [TIFF OMITTED] T0377.050
    
    [GRAPHIC] [TIFF OMITTED] T0377.051
    
    [GRAPHIC] [TIFF OMITTED] T0377.052
    
    [GRAPHIC] [TIFF OMITTED] T0377.053
    
    [GRAPHIC] [TIFF OMITTED] T0377.054
    
    Mr. Souder. Our next witness is Chaplain Robert Toney from 
the Angola Prison in Louisiana.
    Thank you for coming today.
    Rev. Toney. Thank you.
    I would like to thank this committee and Brandon Lerch for 
the opportunity of a lifetime today for me to be here before 
you distinguished gentlemen and ladies. I also would like to 
thank my warden of the Louisiana State Penitentiary for the 
opportunity to represent him today, Warden Burl Cain, and the 
5,108 inmates and the 1,800 employees of the Louisiana State 
Penitentiary.
    The Louisiana State Penitentiary is better known as simply 
Angola. It was once the most violent prison in America. Today, 
we are known as the safest prison in America. This change began 
with a warden that believed that change could occur. He also 
came with a dream that within these walls transformation could 
take place within the lives of those inmates there and that 
they could become productive people in our world.
    The chaplain and the programs within a prison cannot make 
this change. The only way that change is possible within 
America inside the walls of our prison is through the warden, 
the secretary of corrections and through the Governor's Office; 
and our warden had that support. He was willing to do it, 
Secretary of Corrections Richard Stalder was willing to do it, 
and they had the support of the Governor.
    Angola houses the most violent offenders with an average 
sentence length of 88 years. We have only four types of inmates 
within our facility: We have murderers, we have aggravated sex 
offenders, we have habitual offenders, we have short-timers 
that were so violent they could not be kept in another facility 
so they sent them to us in Angola.
    Warden Cain brought this moral change 10 years ago to 
Angola.
    Moral rehabilitation is the only rehabilitation that works. 
If you just have education, what you have done is just created 
a smarter criminal. The change must come from within.
    The New Orleans Baptist Theological Seminary, a 4-year, 
accredited college, was started in 1997 within the walls of 
Angola. This school exists today without any tax dollars. This 
school is supported by the local churches, the Judson Baptist 
Association of Churches.
    In 1997, we had our first group of inmates graduate from 
this school, and I want to remind you they are graduating with 
a B.A. degree that is an accredited degree, that when they are 
out of the system can be built upon with a master's degree or 
doctoral degree.
    We had our first group that graduated. We put these to work 
as inmate ministers. We put them to work all over our prison. 
It is their job to minister and serve others. Inmates put down 
the knives and the weapons and they picked up the Bible.
    I have a graph that I have given to you today that shows 
that during this 10-year period of Warden Cain's 
administration, the more rehabilitation has occurred, the 
violence of inmates on inmates, inmates on staff, has gone down 
to nearly nothing.
    We had a culture change. We have no profanity. Profanity is 
only one step away from violence. If we can keep it out of our 
prisons, we are two steps away from violence.
    We sent missionaries from Angola to the other prisons 
within our State. A missionary, as we would call it, is one of 
our inmates that graduated from our 4-year college. In 2005, we 
will have 50 more graduates with a 4-year degree. We will have 
a graduation like any other college. Moms and dads are going to 
come. The president of the seminary, Dr. Chuck Kelley, from New 
Orleans, LA, will be there, along with other professors. They 
will be in their attire of their gowns and their caps. In many 
inmates' lives, this will be the first positive accomplishment 
in their entire life. Moms and dads will get to see their sons 
accomplish a great goal.
    The New Orleans Baptist Theological Seminary is not just 
Baptists, it is for all faiths. Within this seminary, within 
this college, we have Pentecostal, Methodists, Episcopal, 
Muslim, Jehovah's Witnesses, Church of Latter Day Saints--non-
religion.
    It is non-religion. It is moral education. We want you to 
have morality, because character counts.
    All religious groups have grown as a result of this school 
being inside our walls. The culture of the bloodiest prison in 
America has changed. Morality exists, hope lives, men have been 
rehabilitated. The men who have gone home after completing this 
program have not returned to prison.
    Angola, out of 5,108 inmates, has only 1,400 of our inmates 
living in a cell. Most of our population live in a dormitory 
setting, and I want you to know they live in peace. Tonight 
they will be able to go to sleep and not have to worry about 
someone taking their life.
    We have church 7 nights a week, 7 days a week. We had 
11,000 outside volunteers enter our prison in 2004 conducting 
various types of ministry. Ms. America came to Angola in 2003. 
She walked all over our prison without one whistle or catcall. 
You are safer in Angola tonight than you are on the streets of 
Washington, DC.
    If you want the prison systems changed in America, it is 
moral rehabilitation. Our Secretary Richard Stalder says, 
``Faith in a prison makes our prisons safer.'' Faith doesn't 
need to be a side street, but it needs to be the Main Street.
    Warden Cain has said, even an atheist warden would want 
faith within a prison, because faith within a prison system 
makes a prison safer. People can change. Moral rehabilitation 
works.
    The New Orleans Baptist Theological Seminary began a 4-year 
degree program in Mississippi this year at Parchman. Georgia is 
looking next week at our system. Florida is looking. Alabama is 
looking. Arkansas is looking. Moody Bible College is ready to 
take on this same challenge in Illinois if the door will open.
    Remember, no tax dollars. The church of America will pay 
for this. It won't cost the government anything. The church of 
America is waiting for a vehicle to drive. All you have to do 
is put us in the driver's seat, give us an opportunity to 
change it, and it can take place. You can watch recidivism go 
down immediately.
    This year, One Day With God occurred within our walls. We 
brought in 300 children of our inmates to reconnect with their 
father. This had never happened in the history of Angola. We 
are a maximum security prison for the State. We are not a 
medium security or minimum security. Because of a warden that 
wants to make a difference, change has occurred.
    Angola represents the true spirit of America. This is what 
happens when you have true morality. I would like to invite 
each one of you, on behalf of our Warden Burl Cain and our 
Secretary Richard Stalder, to come and see the truth for 
yourself.
    Thank you today.
    Mr. Souder. Thank you very much.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0377.055
    
    Mr. Souder. Our next witness is Mr. Frederick Davie, senior 
vice president of public policy, Public-Private Ventures. Thank 
you for coming.

                STATEMENT OF FREDERICK A. DAVIE

    Mr. Davie. Thank you, Mr. Chairman. And thank you, Members, 
and Ranking Member Cummings. Thank you very much. And thanks to 
you for taking the time to examine this issue. I also want to 
thank Congressman Davis and Congressman Portman for your work 
on behalf of the returning offender population.
    Public-Private Ventures is a national nonprofit 
organization seeking to improve the effectiveness of social 
policies and programs, with a particular emphasis on work force 
development issues. Public-Private Ventures designs, tests and 
studies initiatives that increase opportunities for the 
residents of low-income communities.
    As has been stated here already today, every year nearly 
760,000 ex-prisoners threaten the already tenuous cohesion of 
many of the country's most troubled communities. In response, 
Public-Private Ventures developed and launched a $32\1/2\ 
million national reentry initiative. We call it Ready4Work, An 
Ex-prisoner, Faith and Community Initiative. We have done it in 
partnership with the U.S. Departments of Labor and Justice and 
the Annie E. Casey and the Ford Foundation.
    I want to thank Secretary Chow and her staff, especially 
Brent Orrell, who is the DOL's Director of Faith and Community 
Initiatives, as well as Robert Florez, who is an Administrative 
OJDDP at the Justice Department and his staff, Gwendolyn 
Dilworth, for creating this partnership with us.
    Ready4Work operates in areas of high crime to strengthen 
local networks of young adults and juveniles as they reenter 
their communities following detention or incarceration. Our 
primary mission is to connect ex-offenders with employment 
opportunities and to help them find housing, transportation and 
child care support they need to sustain that employment. Each 
participant is also matched with a volunteer mentor recruited 
through local faith-based and community organizations to 
provide personal support and assistance.
    There are 16 sites across the country, both secular and 
faith-based. I have included a full list for the record, and 
Public-Private Ventures would be happy to facilitate contact 
between this committee or any other Members of Congress and any 
other participating organizations.
    Ready4Work is currently in its second year of operation. 
The sites have so far recruited over 2,000 participants, all 
nonviolent, nonsexual, except for prostitution felony 
offenders. Eighty-five percent of the participants are male, 
nearly 80 percent are African Americans.
    Of the adult participants, nearly 100 percent are receiving 
case management, 64 percent have been placed in jobs, and 
nearly half have been matched with mentors.
    In the juvenile sites, 64 percent are African American and 
84 percent are male. Half are between the ages of 17 and 19. 
Almost 100 percent of the juveniles are receiving case 
management, 79 percent are being mentored, 60 percent are 
receiving educational services, and 67 percent are receiving 
employment services.
    What sets Ready4Work apart from traditional reentry efforts 
is its focus on placing local, faith-based and community 
organizations at the heart of the network that greets folks 
when they come out of prison. We believe that these 
organizations are a unique source of accountability and support 
for returning offenders. They are frequently located in the 
most deeply affected neighborhoods, as we have heard, and they 
have resources that can make a difference between success and 
failure for a returnee.
    Frankly, the compassion and commitment that these groups 
bring to the work is irreplaceable.
    We also benefit immeasurably from our partnership with the 
business community and its willingness to employ Ready4Work 
participants. We applaud those of you who have moved this issue 
of reentry to the top of Congress' agenda. Public-Private 
Ventures believes that the Second Chance Act provides a solid 
basis for creating a national policy aimed at reducing crime 
and recidivism. We also believe that the bill should be 
strengthened to find ways to direct more assistance toward the 
faith community and community institutions.
    We further believe that Congress should look for ways to 
match the program experience and technical capacity of 
organizations like ours with the people power of smaller 
groups. This has been the Ready4Work model, one that we believe 
offers an excellent chance to break the cycle of crime and 
imprisonment for the benefit of returning offenders and their 
communities.
    I want to thank you again for this opportunity, and we look 
forward to continuing to work with the 109th Congress to enact 
meaningful reentry legislation.
    Thank you very much.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Davie follows:]

    [GRAPHIC] [TIFF OMITTED] T0377.056
    
    [GRAPHIC] [TIFF OMITTED] T0377.057
    
    [GRAPHIC] [TIFF OMITTED] T0377.058
    
    Mr. Souder. And now that Sammy Sosa apparently is heading 
to Congressman Cummings' district, you will be our clean-up 
person from Chicago.
    Mr. George A.H. Williams, Treatment Alternatives for Safe 
Communities, from Chicago, IL. Thank you for your patience 
today.

               STATEMENT OF GEORGE A.H. WILLIAMS

    Mr. George Williams. Thank you. Thank you very much. Yes, 
as a matter of fact, we are going to miss Sammy very much.
    To the chairman, thank you, sir. It is good seeing you 
again. The last time I saw you was in Chicago on the West Side 
at Congressman Davis' district when you had your committee 
hearing there. I would like to thank you today for having this 
process here.
    And to the past president, Congressman Elijah Cummings, of 
the Congressional Black Caucus, thank you, sir, for your tenure 
in that process. I appreciate all the hard work you have done 
and will do over the years.
    And to my esteemed Congressman and my trusted leader, Mr. 
Congressman Danny Davis--he is my Congressman, but most 
importantly, he is a trusted leader, a man that has the trust 
of his district, of the men that live in his district.
    I am going to talk a little bit about my organization, 
TSAC. Treatment Alternatives for Safe Communities is a 
statewide, not-for-profit organization that provides access to 
recovery and other specialized services to individuals in 
Illinois involved in the criminal justice systems, and the 
corrections, juvenile justice, child welfare, public aid 
systems also. TSAC programs reaches over 30,000 people across 
the State each year, including correctional transition programs 
that provide clinical case management for more than 4,000 
adults annually who are reentering the community following 
incarceration.
    TSAC works with an array of service providers and community 
partners, including treatment, recovery, support, 
nontraditional, traditional organizations, faith-based 
throughout the State of Illinois.
    We at TSAC are in full support of the Second Chance Act to 
help to reduce the numerous barriers facing men and women, 
families and communities as well. The Second Chance Act is a 
necessary step toward reducing the high recidivism rate and the 
costs that accompany recidivism and repeat incarceration, 
including the threat to public health, public safety.
    This legislation begins the process of ensuring better 
coordination and planning for relief, providing necessary drug 
treatment and recovery support services, job training, 
education, housing, family assistance upon release. TSAC 
strongly urges Congress to support this legislation to provide 
the health, justice, welfare and safety to all of our residents 
and communities.
    Thank you very much for this legislation and for this 
discussion.
    Now I want to spend a few seconds on a particular component 
of our services that we call ``restoring citizenship.'' The 
work that we do is primarily focused on how do you go into the 
man and the woman to get them to look within themselves, as 
well, with all of these external supports that are available. 
Because if you keep in mind, most men and most women go into 
the system because they have offended. They don't come out of 
the system because they offended, they went into the system 
because they offended. That means there was something there in 
the beginning that attracted that type of lifestyle.
    As a matter of fact, I was searching in my mind some time 
ago about the first crime, and I started reading books and 
trying to do some research. Somehow I was led to the Bible. In 
the Bible there is a situation in there where God asks one of 
the humans a question, where was his brother? And he responded 
to God, why are you asking me? I mean, am I my brother's 
keeper? And right then and there for me was probably reflective 
of what we are up against.
    When man lied to God about a crime that he committed, did 
we inherit that consciousness and that spirit as we go forth 
and try to look at and dismantle so many pieces to criminality.
    It is just not the behavior; it is that men and women can 
exist in communities where the behavior is validated, sometimes 
within their family structure, within their community 
structure. So how do we also begin to dismantle those 
processes? And within the Seventh Congressional District, we 
have processes in place in terms of where we are engaging 
communities to dismantle some of the norms that exist, where 
men can exist in those kinds of behaviors and don't get called 
out.
    We are trying to call them out and make them to be 
accountable and to crush some of those support systems that 
allow them to exist as well.
    Behavior is an extremely difficult proposition sometimes, 
and I know that the work we are doing right now, this is a 
movement. This movement around reentry is very early, but this 
is a real strong, powerful movement to look at men and women 
and to help them think about establishing and restoring their 
citizenship, their rights and responsibilities. Because all 
over this country, in the urban areas, in the rural areas, in 
the suburban areas, you have men and women crying out, asking 
for a chance to be self-sufficient and asking this country for 
a second chance. And at some point in time we as a people have 
to answer the question, at what point in time do men and women 
stop serving time?
    Thank you very much.
    [The prepared statement of Mr. George Williams follows:]

    [GRAPHIC] [TIFF OMITTED] T0377.059
    
    [GRAPHIC] [TIFF OMITTED] T0377.060
    
    Mr. Souder. Well, thank you all for your testimony.
    I wanted to just ask Chaplain Toney again, did you say the 
average was 88 years in the sentence?
    Rev. Toney. Yes, sir.
    Mr. Souder. I just wanted to make sure I heard that right, 
in case I quote that sometime. I am not used to that number.
    One of the challenges that we face--just to be very open as 
we try to work through this legislation, one of the great 
things with today's hearing is, it suggests some possibilities 
about how we address this.
    There are several things that are happening, whether 
anybody likes them or not, and that is State funding is flat at 
best and not inflation-adjusted even, just flat funding. 
Federal funding is tight, and the problems are not, overall, 
going down. In fact, crime has gone down, but that is because 
we lock so many people up.
    Now they are about to come back out, and what does that 
mean?
    This is a huge challenge. That is why we have expanded 
discussions about faith-based and community organizations and 
business organizations, because it doesn't matter whether you 
have a Republican or a Democratic Governor, it doesn't matter 
who is in charge of the legislature, it doesn't matter who is 
in charge, the money is not going up. So how do we deal with 
this?
    We also have another sociological, demographic problem that 
was alluded to from the beginning today that is a huge 
challenge politically, and that is that the most difficult 
crime, if not all crime, is certainly skewed to inside the 
black male community and in the minority community and in the 
urban areas. It doesn't mean there isn't crime elsewhere, it 
doesn't mean there are not addictions to pornography or other 
types of problems in all sorts of suburbs, and it doesn't mean 
that the majority, or close to the majority, of people in 
prisons are not majority white population. But it does mean 
that this disproportionately hits urban centers and 
disproportionately hits the minority community.
    It is also true that those population areas overall in the 
United States have declined. So there are fewer Members of 
Congress from those areas. And politically it becomes harder to 
move legislation that focuses on those communities as they are 
less representative of the whole of the United States.
    And it isn't surprising necessarily that the Congressmen at 
our hearing today that were most interested were from Los 
Angeles and Baltimore and Kansas City and Chicago and 
Washington, DC, and major metropolitan areas, because they have 
the most stake in it.
    The problem is, to pass this legislation, how do we broaden 
our base? How does this base reach the majority community, as 
some of you have reached out and said you have obligations 
here?
    One is a cost question, which is cheaper? But, quite 
frankly, it is not absolutely clear which is cheaper. At some 
point, because of the difficulty of this, it is cheaper, but it 
is not guaranteed cheaper based on the housing questions, job 
training questions and all of the other kinds of things that we 
need to do.
    There is a moral obligation with it, and I think what is 
interesting and what I believe is a potential breakthrough 
opportunity with this is that as you hear people like Pat, and 
we have known each other for at least 35 years, like you know 
Congressman Doolittle and Congressman Royce and Congressman 
Dana Rohrabacher, because we all grew up together in the 
conservative movement, that having people who have gone through 
this, not that I want to or recommend other Members of Congress 
go to prison for 24 months to figure out the difficulty of it, 
but to try to figure out and hear from people who share our 
ideology make a passionate appeal of both the need to mentor, 
the time, the obligation to spend the time, and the need for 
services and how we address the follow-through, and the 
difficulty, given some of the laws that we passed, that our 
constituents support and polls show they still support and even 
want them to be tougher. This is a huge dilemma as we work this 
through in Congress.
    But when we hear--and one of the things the American people 
are desperate for is hope. They see recidivism rates go up. 
They see the problems seem to be there. We battle on this drug 
issue all the time. This is a drug policy committee.
    But when we hear in Angola prison a story like that, or we 
hear individual cases like we heard today, or cases that this 
is going on in Detroit, not known as an easy city necessarily 
to work in, or in Washington, DC, which has been the murder 
capital of the United States 7 of the last 8 years, that to 
listen to those kind of programs offers hope. And I hope that 
today's hearing can advance that, that in fact--because if this 
is viewed as just a traditional way to transfer more money into 
urban communities and gets an ``us against them'' type of 
mentality in battling for dollars, which is often where the 
rubber meets the road here in Congress, it isn't going to go 
anywhere.
    This has been a very difficult process, to even get this 
bill launched. It sounds great, it is very moving, but in the 
reality of how bills become law, it is hard. I think you have 
suggested a number of things today, and it has been great to 
hear all of your testimonies about different things that have 
worked well.
    I may have a particular question here to wrap up the 
hearing, but let me yield to Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. Thank you 
very much, Mr. Chairman.
    What you were just saying, as I sit here, I couldn't help 
but say to myself that trying to get the public to realize that 
people can do their time and then go out into the world and be 
productive is so very, very hard; and that, as testimony, has 
been stated over and over again in this hearing here today, 
that a prison sentence--or not necessarily a sentence, a 
conviction dooms a person for a lifetime.
    Mr. Williams, I just want to go to something that you said, 
and I am so glad you brought this out. I actually in my law 
practice and when I was a State delegate, hired former inmates 
to give them a chance. One of the things that I realized early 
on is that prison does take more away from a person than their 
freedom. I noticed just the whole being on schedule, time, 
coming to work on time was a problem. It is like they had to 
readjust.
    I noticed another very interesting thing that came up not 
long ago. We had a fellow in Maryland who was wrongfully 
accused and served 27 years and got out, and his fiance said 
that even after he got out, he would stay in the basement and 
wouldn't come out. She said she could hardly get him to come 
out of the basement, and he would just sit there.
    I think a lot of people don't realize. They think about 
just the physical incarceration. They don't think about the 
fact that it really does something to a person. It takes them 
out of society. And that reintegration thing is so significant.
    I was talking a little bit earlier about the program that 
we had in Baltimore. When you talk about integration and you 
talk about family, I think you said church.
    Mr. Joseph Williams. And employment.
    Mr. Cummings. And employment. One of the things that we 
noticed--take for example with family, fellows, the volunteers 
who had done pretty well in life would come on Saturdays, and 
we would have like a 12-step program where people sit around 
and talk about their lives or whatever. But they would open up 
into social activities with folk who had been in prison and 
want their families together, and it made a world of 
difference, because then they became more attached to the 
family.
    We also had a fatherhood piece, where fathers could 
reconnect with their children. So that gave them something to 
hold onto as opposed to the streets. It gave them somebody kind 
of looking over their shoulder, and somebody else to disappoint 
if anything went wrong.
    The same thing with work. I think a lot of people don't 
realize how significant work is. A lot of jobs create a whole 
new set of family members, because they found they begin to 
socialize with these folks, they became a team at work, 
depending on what kind of job it was, a team at work, and had 
new people, new people getting up at 6 a.m., maybe getting off 
at 5 p.m., and talking about things other than committing a 
crime; and they had something else, they had hope.
    Because a lot of these jobs had opportunities for them to 
move up in life. Things that are very basic to those who may 
not have gone through the system, but we take them for granted. 
But the fact is that all of that I think is needed to make a 
person whole. And certainly church.
    As the son of two preachers, I found a lot of the people in 
our church will come. They will have, again, a reintegration, a 
whole other family to connect with, and a family that is not 
dealing with drugs, a family not committing crime, a family 
where the norm is to do the right thing.
    So it is just a whole lot. But I am glad you brought that 
aspect. And I didn't hear your testimony, Mr. Nolan. Maybe you 
hit on that, too, and others. But I just think that is a part, 
no matter what we have to do, we have to deal with that piece.
    Any comments, sir?
    Mr. Joseph Williams. Yes, I wholeheartedly agree with you.
    Back in 1981, when I was making the transition from a life 
of crime to one of being productive in the community, the 
greatest challenge I faced--many times people ask me what was 
the greatest challenge I faced, was it struggling with the 
addiction issue or the lifestyle issue? But it was loneliness. 
Because for 13 years, most of my teenage years and all of my 
adult years up to that point, all of my associations and 
friendships were with criminals and drug addicts.
    And so, now, I was drug free. I wanted to do the right 
thing, but I was very lonely. And I heard that Mother Teresa 
was quoted as citing--she was asked, what was the greatest 
disease that she had ever seen, the most devastating disease 
she had ever seen? And she cited it was loneliness. And that 
loneliness, because I didn't have the kinds of people, the pro-
social types of people to fellowship with and to direct me in 
the right way, was a danger of driving me back to my old 
associates and back to the old behaviors. And I wonder, with 
the other two former inmates who testified earlier, that had I 
not been able to, through my church, make all those new 
associations through friendships and through school and through 
employment, that I would not be here today.
    Mr. Cummings. How does government--and this is my last 
question--how does a program like the one we are talking about, 
how do we in government--we can only do but so much. But what 
do you see us doing, or you all see us doing, and I assume we 
pretty much all agree that's a big part of it, to get people 
more socially integrated?
    I mean, what do you see government's role in that, if any?
    Mr. Joseph Williams. Yes, and I don't think that it is 
something that the government can do per se, but I think the 
greatest role that government can take on is to build the 
capacity of organizations such as Transition of Prisoners and 
these organizations who have been committed to this cause for a 
number of years.
    And unfortunately, what happens is, you know, we have 
thrown around some figures of some $300 million and $100 
million, and so a lot of nonprofits will develop a desire to go 
into re-entry because of that. But there's been a lot of 
organizations that have been out here for years and have been 
committed to it, and they are going to do it whether the 
funding is there or not. But they don't have the capacity to 
really do it at a large scale.
    So I think that the best thing that government could do is 
to build the capacity of community-based and faith-based 
organizations as we build the capacity of the churches. And 
that way, I believe that we will be able to sustain our 
programs. And we know that the funding will not be there 
forever, but we need a way to build our capacity so that we 
could continue to do this work after the funding is gone.
    Mr. Nolan. If I could answer, too, the government could 
also view churches as a partner. Justice Fellowship sponsored a 
conference and the head of transition services from New Mexico 
attended it, and he said it never occurred to him to look to 
the churches for mentors.
    He was in charge of finding mentors, and he was going to 
all of these community groups and not having much success. And 
it never occurred to him to go to churches. And so he called me 
when he got home, and he said, half of the folks in New Mexico 
are Catholics. And I am not a Catholic. What do I do?
    And I knew the bishop there, and the Catholic Church 
provided a nun full-time to organize parishes to recruit 
mentors. And the Protestants, several churches got together and 
hired somebody half-time. And all he had to do was just be open 
to that. And, frankly, a lot of government officials aren't 
open to that.
    They think it's improper to have a relationship. Again, 
they view churches as maybe providing an education program, or 
it's programmatic as opposed to a partner. Then a lot of States 
have policies that put up barriers. Many States have a policy 
that says, if you mentor someone in prison, the prisoner is 
prohibited from being in a relationship with you when you get 
out of prison. The Federal Bureau of Prisons has that policy. 
If a volunteer comes in and mentors you in prison, you are 
prohibited from being in touch with them when they get out. 
Texas had that policy. IFI had----
    Mr. Souder. Would you elaborate on that? I don't 
understand.
    Mr. Nolan. Yes. The idea is that the inmates are all cons 
and, therefore, will take advantage of these volunteers when 
they get out; that the volunteers would be victims of the 
offenders when they get out, and so they have to sever that 
relationship.
    Most States have that policy, and the Federal Bureau of 
Prisons has that policy. Texas had that policy, and IFI had to 
have an exemption. Texas still has that policy. And IFI is 
exempted from that policy.
    Let me say one last thing. Now, Director Wilkinson is 
definitely an exception to this. But most prison systems are 
built on or structured around what is convenient for the 
system. If nobody riots and nobody escapes, they are a good 
warden. If somebody riots and somebody escapes, they are bad.
    Therefore, volunteers, religious volunteers and mentors are 
a threat to their careers, because every time a volunteer comes 
in, there might be contraband there; there might be something 
there, and so it's easier to exclude those volunteers. They are 
a pain in the neck. They are more work to the people with that 
attitude.
    Institutional security is more important than--and, in 
fact, one warden said to me that the way he was trained--now 
he's different in this. But the way he was trained in Oklahoma 
was that, if nobody rioted and nobody escaped, he was a good 
warden. If that prisoner walked out of prison 1 block and raped 
or murdered somebody, that was still OK because they hadn't 
done it on his watch.
    And we need to change that attitude to where corrections 
people view public safety as their role.
    And that whole mindset--if public safety is a role, then 
you welcome religious volunteers and mentors. And Burl Cain--
you know, I have been to Angola. It is a different atmosphere. 
The inmates look you in the eye. They have hope even. The 
reason that 88 years is the average sentence is because most of 
them are going to die in prison there. And Warden Cain has 
changed it so they are buried with dignity. The choir sings. 
They can make their own casket or another inmate can.
    They have created a carriage with horses to draw it. They 
have a ceremony to bear them. They used to be just buried in 
cardboard boxes in paupers' graves. Now there's a ceremony to 
honor their life with their friends. They are treated like 
human beings whose lives matter.
    And you see it in the way that the inmates talk--outsiders 
the way they talk to each other, the respect with which they 
treat each other and are treated by the staff.
    Mr. Cummings. I just have one other thing.
    Mr. Nolan, as I listened to you talk, I have to tell you, I 
became a little bit depressed when you talked about them, you 
know, the caskets and everything.
    I guess one of the things that I am--and maybe nobody else 
will say this, but I am going to say it--you know, there are so 
many people in my community who come upon the Earth, and 
because of circumstances, a lot of times, and some poor 
decisions sometimes, they don't believe that they can live the 
kind of life that other people live.
    And I will never forget one time when I went to speak at a 
prison, and I looked around, and I was speaking at a 
graduation. And if you did not see the guards in the room, I 
would have sworn you were at a church.
    I guess my point is that, you know, some kind of way--I 
want to see people believe that they don't have to--the prison 
doesn't have to be a part of their lives.
    Mr. Nolan. Right.
    Mr. Cummings. And I don't want to get to a point where--and 
I am not knocking anybody who has gone through that process--
but, I tell you, I want people to have hope. I don't 
necessarily talk about coping skills; I talk about hoping 
skills. Because I think when you lose hope--and that my hope is 
to have a nice funeral in a prison, and a fellow inmate is 
making me a casket, to me that ain't no hope. That's not hope 
to me. That does not excite me.
    What does excite me is trying to--although some of these 
gentlemen and women, perhaps, may not ever get out, but for 
them to know that, every day, they can be better than they were 
the day before, that's hope under those circumstances. It's 
hope knowing that they can perhaps counsel a younger inmate and 
try to show him or her the path to that, when they get out, to 
how you have things that they want to consider, things of that 
nature.
    And I don't want--I tell you, I don't want us to adopt a 
philosophy--you know, one of the things I say all the time is, 
we have one life to live, and this is no dress rehearsal, and 
this is the life.
    And sometimes I think that when we get into scenarios like 
that, like, you know, the big deal is to be able to make a 
casket, and what that reminds me of, one of the guys in my 
neighborhood, because I live in the inner city, Baltimore, who 
believe they are going to die before they are 18.
    So what is their, I mean, so--committing a crime is not as 
big of a deal because they don't expect to be here.
    What I am saying to you is that we have to, no matter what 
we do in our prison systems, I think we have to create a sense 
of hope.
    And I know, I am not sitting here trying to sound like 
somebody who is some flaming liberal who thinks he is supposed 
to be paying for people who commit crimes. I know what it is to 
be a victim of a crime. I know what it is to have a gun, sawed-
off shot gun, two of them, pointed at my head at 2 a.m. I 
understand it.
    But at the same time I don't want us to move to that point 
where we think that it's nice that somebody can make a casket 
for me in prison and bury me on prison ground. I don't think 
that sends a very powerful message at all, to be frank with 
you.
    Mr. Nolan. I didn't want to send that message. I wanted to 
say they are treated with dignity so they can live a life of 
consequence even if we are never going to let them out. That is 
what Warden Cain has done and the seminary where they can do 
exactly what you said, spread hope to the other prisoners. They 
even have a culinary class. They even have the chefs from New 
Orleans come up and teach them to create terrific, you know, 
high-level cuisine for the other inmates.
    Mr. Cummings. But, see, the thing is that I know for a 
fact, once, one little decision in my life could have put me in 
the same position as a lot of those folks that find themselves 
in prison.
    Mr. Nolan. And one of the things we want to work with you 
on is sentencing, because these long sentences are horribly 
cruel in many cases.
    Mr. Cummings. Right, there you go.
    Thank you.
    Mr. Souder. Mr. Davis.
    Mr. Davis. Thank you, again, Mr. Chairman. Let me again 
commend you and Ranking Member Cummings for holding this 
hearing.
    I also want to thank this group of witnesses especially for 
coming to testify.
    I agree with you when you talk about the difficulty of 
passing legislation, and especially when you talk about the 
differences that exist in different geographic areas, big 
cities versus smaller towns, urban areas versus rural areas, 
where the impact of certain issues are not felt as great.
    Pat, it is always good to be where you are, talking about 
your experiences, and what you have seen and what you have 
done. And I thank you for continuing to do that.
    Mr. Williams, it's--I think the kind of light that you 
shared and the kind of inspiration that you give and the kind 
of hope that you convey to others who may be in the same 
circumstances and situations that you have once been in.
    Chaplain Toney, I grew up about 10 miles from what we used 
to call the Louisiana line. And so I knew about Angola when I 
was a child growing up in Arkansas.
    And, of course, our parents would admonish us, whenever we 
went to Louisiana, that we better not get into any trouble 
because, if we did, we might end up in Angola.
    And, of course, that spoke to the reputation that Angola 
had at that time. And to see how it's changing--as a matter of 
fact, I have an invitation from some inmates in Angola to visit 
that I have been trying to figure out when I could work that 
out, if I could work it out, in terms of my schedule.
    Mr. Toney. Any time.
    Mr. Davis. And I am going to put more effort on to it to 
try to work it out from hearing your testimony today and what 
you have conveyed.
    George, it is always good to hear you talk about the work 
of TASC and what it does, and coming from your own experiences. 
And I also want to thank you not only for changing your 
schedule to come and to be here, but also for serving as co-
chairman of our ex-offender task force in the 7th Congressional 
District back in Illinois. And the work that task does to help 
raise the level of understanding about these issues.
    When I look at the panel knowing, for example, that three 
of you, at least, are what people would call ex-offenders, that 
there are three of you on the panel who are dignified citizens, 
who are self-sufficient, who are professional at what you do. I 
think that conveys a kind of hope in and of itself.
    Because what it really says is that there are thousands and 
perhaps hundreds of thousands of others who find themselves in 
a position that you once were in.
    And if given assistance, if given the opportunities, if 
provided the resources, they, too, become productive citizens. 
They, too, become self-sufficient. They, too, become 
contributing members of society, and that's exactly what I 
think we are trying to do is to indeed provide hope for those 
who have become hopeless, to provide help for those who think 
that they might be helpless and to help individuals know that 
it's not always a matter of where you have been, but it's also 
a matter of where you are going.
    And I believe that our criminal justice system can, in 
fact, change.
    Mr. George Williams. Yes, sir.
    Mr. Davis. That it can, in fact, be different.
    What I think government can provide is the impetus. But as 
others have already said, it does take a movement. And the only 
way there is a movement, there has to be the people. And I 
mean, you have given me so much hope.
    Mr. Davis, organizations like yours that are really looking 
and searching--I think we know that it's not going to be easy.
    Mr. George Williams. No, yes, sir.
    Mr. Davis. I mean, I grew up listening to my folks tell us, 
you know the Langston Hughes stuff, that life ain't been no 
crystal stair, had a lot of tacks and a lot of holes in it. But 
we have just got to keep trying.
    And that's what the Second Chance Act attempts to do. 
That's what the Public Safety Self-Sufficiency Act tries to do, 
is provide the hope that tells us that we got to keep trying.
    And so I thank you gentlemen so very much.
    And I thank you, Mr. Chairman, again, for this hearing.
    And I believe that we are on the right track, and that the 
American people will respond and life does not have to be, for 
individuals who are incarcerated, one dark, gloomy picture.
    So I thank you.
    Mr. George Williams. Thank you, sir.
    Mr. Souder. Thank you. As we move forward--and it was 
important that we get the year started out right in this 2-year 
session of Congress--a couple of thoughts here at the end: One 
is, it's very easy to be critical of those who commit crimes, 
and that those of us who haven't been to jail, it's hard--and 
since the population that hasn't had to vote the tax money with 
which to do this.
    In communicating, I have been trying to think of analogies 
of every January, I and most Americans commit to lose weight. 
And yet, we don't; that we fail. And yet we criticize those, 
and they even have physical addictions, without any of the 
resources that we have to follow through, if they fail in what 
their goal is.
    And how to get in a way that the average person can 
understand the difficulty without being condemning. Because at 
root, I believe, as Mr. Williams suggested and others, that the 
root cause is sin. And that we are in a constant battle, and 
that those of us who have extra resources with which to battle 
it are blessed.
    And then the question comes, how do we reach out to those 
who don't have those and what is our obligation to do so and 
what is the individual's obligation then to change because, 
there is accountability there, too.
    And trying to communicate this message is of critical 
importance as we move through this. Really, what are three 
stages for those who follow this bill and are going to be 
active and trying to promote this?
    As Pat knows, from being in the Assembly, there's really 
three ways to do this. One is the bill directly, which is an 
authorizing bill that says this is allowed to fund these types 
of programs, and it's--Congressman Davis has a housing bill 
that we have supported before, and that is arguably the most 
difficult, because you have to go through the House, you have 
to go through the Senate, and the President has to reconcile 
and support it, too.
    The second thing is that, in the appropriations process, to 
try to get little pieces here and there where we fund things in 
the appropriations process that are parts of the overall bill, 
and the general question of prison re-entry.
    And the third is through the executive branch where they 
make decisions every day on how to allocate funding.
    For example, in my home area in Ft. Wayne, IN, which is a 
city of 200,000, not as big as most of the cities you are 
dealing with for the most part today, the fact is that the 
Justice Department has a re-entry program because in Ft. 
Wayne--which has been bragging now for 5 years that they have 
had these great crime reductions. Now their people or many 
could go out of prison, 3,000 of them, in some neighborhoods 
that only have 10,000 people in front of them.
    Now what happens, you know, the housing situation is 
stressed. The job situation is stressed. There aren't jobs in 
that section of the city that other sections of the city say, 
why should they come back there?
    It is a problem all across America, as we as politicians 
and government leaders have bragged about the government 
reduction in crime. Many of those sentences were 3, 5, 7 years, 
and now we have the re-entry questions that we are going to 
have to deal with this, or what we have bragged about and run 
on, in areas outside the urban areas as well as inside the 
urban areas we are faced with. So I think there are multiple 
ways to try to tackle this.
    I wanted to make sure that we started right at the 
beginning of the 2-year term to try to raise this, and you have 
helped. I would also like if you can work with Brandon Lerch on 
our staff, for example, in the Ready-to-Work Program, to 
identify youth listed in your testimony, all these different 
sites across the country, to give us a little more feedback in 
what government funds were in, how that has worked in the 
capacity building, so we can see. And if you have any data, any 
of the rest of you.
    Mr. George Williams. OK.
    Mr. Souder. In Chicago and Detroit, and I know Justice 
Fellowship can do that, too.
    So as we move into this hearing record, as it moves into 
the different authorizing committees, that we can try to, 
whether it's through floor statements, through different 
meetings, that we bring people in. The more information we 
have, the better armed we will be to try to tackle these 
difficult questions.
    This committee does authorizing and oversight on drug 
policy, so there are a number of things here--for example in 
the treatment program, when I have talked to--when I say about 
the appropriations process, Chairman Wolf and I have talked to 
Commerce, State and Justice Appropriations about, should drug 
treatment be more precisely targeted in a higher percentage 
toward prisons?
    Because if we can't get to it early on, or if, in fact, it 
becomes a greater problem in prison or they are introduced to 
it in prison, it is a huge question, how do we best target 
these funds?
    So any kind of information you can give us for this hearing 
record will not only be in the official record, but then we can 
use it as we debate it in multiple forms, including additional 
hearings in this subcommittee.
    Would any of you like to make any closing comments?
    Mr. Davie. I would, Mr. Chairman.
    You asked earlier sort of what could Congress do. And I 
would like to suggest that one of the areas where we have not 
paid enough attention to garnering resources and partnerships 
is with the philanthropic community.
    I mentioned the Ford Foundation and the Annie E. Casey 
Foundation in my testimony. I used to work for Ford. So I know 
that world pretty well, but I think if Congress and the 
President were to reach out to the heads of the major 
foundations and suggest they could play a role in this area, a 
bigger role as well in terms of helping to support local 
community and faith-based organizations, in the delivery of 
these services, you would find a good partner there. But I 
think they need to cover--I think if the legislation somehow 
required a match from philanthropic and private sources in the 
implementation of these programs, that would be another sort of 
incentive and method to get the philanthropic community 
involved. There are billions and billions of dollars there, and 
this is an issue that the philanthropic community has not paid 
a lot of attention to.
    I, frankly, think they are scared of it in some ways for 
obvious reasons. But with the support and cover of government, 
in pursuing this as a national policy and a national issue, I 
do think a number of those philanthropic institutions will come 
along.
    I would just encourage you--if you see your way so clear--
to reach out to that community, because I think they can be a 
valuable resource.
    Mr. Souder. We will followup directly on that question. If 
I can make an editorial comment here that, as we work this 
through--the President's faith-based initiative, when he first 
took office, somehow became mostly focused on the public 
funding portion that was going to go to faith-based. It really 
had multiple pieces, including capacity building, which we 
talked about. How do we get people setting up 501c3s? How do we 
train them in accounting methods so they can have credibility 
when they go to philanthropic institutions, and then the tax 
credit, which would give incentive to individuals when they 
give these 501c3s and to philanthropic organizations? The 
public fight became over the funding portion. And we kind of 
lost the other two, where we might have been able to move 
forward.
    Steve Goldsmith was originally hired. And as he has pointed 
out repeatedly, there's far more dollars in the philanthropic 
area right now than there are in government. Somehow this got 
second, the back burner. Trying to reconstruct some of how that 
happened is important as we move forward.
    Second, one of the things that appeared to have happened is 
that the philanthropic organizations themselves backed away--if 
government didn't put the money in, because government money 
was like a good-housekeeping seal, that we believe this group 
is good.
    And so much like what is happening in pharmaceutical prices 
and Medicare is, as we were trying to go cheap on the drug 
prices, that every private insurance company standard emulated 
the government price. And if the philanthropic organizations 
merely mimic what we do, we are right back to the first place.
    So as we move multiple faith-based pieces through, which we 
will probably be starting within 4 weeks, everything from 
welfare reform, social services block grant and other types of 
things, in addition to the regular bill and regular 
implementation, we will try to figure out how to do that, with 
suggestions of specifically how to do that, with regional 
conferences where the government brings philanthropic 
organizations in and lets groups come to present that. That was 
one of the things that was raised to me. We do this, for 
example, in small business centers around the United States.
    We have small business centers where the secretary is 
shared. The phone lines are shared. The fax machines are 
shared. Students can come and volunteer. Could that be done in 
a social services way? And would philanthropic organizations 
pay for some of that, which would then build the capacity of 
small organizations, much who have no idea to whom you fill out 
a grant--fill out a grant to the Federal Government or a 
philanthropic organization, don't have time to hire somebody 
even to figure out the bid process of a small foundation, let 
alone the Federal Government when you don't know which 10 days 
it will be in the middle of the month and have some inside 
information.
    This, on the surface, sounds really good, but how to 
implement it in some very practical things. They have done some 
of this around the country. Clearly, the Faith-based Office is 
trying to figure out how to do it. But we have missed this 
philanthropic piece, and the question is, how to jar them. 
There's lots of money there, and you are absolutely right, but 
it's a challenge. So any input you have on that.
    Mr. Toney. Just one statement to you, that position has 
power, and each person who sits on this committee and everyone 
who serves in Congress and across the board, just by you taking 
notice of this and just by taking visits, you have the power to 
make a difference. One man can make a difference.
    Warden Cain is just one man. He has only had 10 years in 
the maximum security prison, the bloodiest prison in America. 
Today, it's the safest. That's one man in the right position. 
Government officials have power. Put that one man in the right 
places in the prisons.
    Education is powerful. We have seminaries across the United 
States. Moody Bible Institute in Chicago. They are a 
prestigious university. There are other universities that are 
ready to take on the process of putting education within the 
prison system, no tax dollars, supported by the Church of 
America. So position has power, and I thank you for what you 
are doing; 88 years, do I agree with that. No, I do not.
    There is one man we have at Angola, Bishop Eugene 
Tannerhill, he is 70 years old, he has been behind bars for 50 
years. Would he be a detriment to society? No, sir. I would 
love for him to be my next-door neighbor.
    There are many guys within our system. We can't help the 88 
years. We just have to do the best we can with where we are, 
and that's what we have done in regards to the caskets and 
those things being done.
    That means a lot to Eugene Tannerhill, who has no one to be 
his emergency contact and to pick his body up when he dies. 
That means a lot to him, that he will have a decent burial, 
that he will have grace and dignity in those last days of his 
life. That means a lot to him.
    You would only have to be in their position to see the hope 
these guys have; hope with no hope; 88 years alive, but they 
still have hope. And they have changed their culture. And the 
society that they live in is a great world, even within the 
walls of a prison. But you have power, and thank you for the 
power that you are using today to change our prisons in 
America.
    Mr. Souder. Thank you.
    Mr. Joseph Williams. I would say that I agree with others 
who have testified that there is a movement, re-entry and 
after-care. It's a very young movement, and it reminds me in 
many ways of the yearly substance-abuse treatment movement that 
started back in the 1960's, when people were looking at, you 
know, the validity of funding substance-abuse treatment.
    And I think one of the major things that occurred in that 
movement was leadership of those who had formerly been addicted 
to drugs and alcohol. And somehow, I think, if a way could be 
found to encourage the leadership of those who have served time 
in prison and have successfully made that transition and assure 
that they have a prominent place in this movement, I think that 
is the best way to perpetuate it years into the future.
    Mr. Souder. Thank you all very much for your testimony and 
participating in this hearing. We look forward to having a 
continuing dialog with you.
    Thank you, Congressman Davis, again for your leadership.
    With that, the committee stands adjourned.
    [Whereupon, at 5:30 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T0377.061

[GRAPHIC] [TIFF OMITTED] T0377.062

[GRAPHIC] [TIFF OMITTED] T0377.063

[GRAPHIC] [TIFF OMITTED] T0377.064

[GRAPHIC] [TIFF OMITTED] T0377.065

[GRAPHIC] [TIFF OMITTED] T0377.066

[GRAPHIC] [TIFF OMITTED] T0377.067

[GRAPHIC] [TIFF OMITTED] T0377.068

                                 <all>

</pre></body></html>
